<html>
<title> - LEGISLATIVE PRESENTATIONS OF THE NATIONAL ASSOCIATION OF STATE DIRECTORS OF VETERANS AFFAIRS, THE AMVETS, THE AMERICAN EX-PRISONERS OF WAR, AND THE VIETNAM VETERANS OF AMERICA</title>
<body><pre>[Senate Hearing 109-564]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-564

    LEGISLATIVE PRESENTATIONS OF THE NATIONAL ASSOCIATION OF STATE 
DIRECTORS OF VETERANS AFFAIRS, THE AMVETS, THE AMERICAN EX-PRISONERS OF 
                WAR, AND THE VIETNAM VETERANS OF AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 _____


                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
28-177 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                      Larry Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Ranking Member, 
Kay Bailey Hutchison, Texas              Hawaii
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             March 30, 2006

                                SENATORS

                                                                   Page
Craig, Hon. Larry, Chairman, U.S. Senator from Idaho.............     1
    Prepared statement...........................................     3
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     4
    Prepared statement...........................................     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................    13
    Prepared statement...........................................    13
Obama, Hon. Barack, U.S. Senator from Illinois...................    34

                               WITNESSES

Basker, George, President, National Association of State 
  Directors of Veterans Affairs..................................     7
    Prepared statement...........................................     9
Harvey, Gerald S., National Commander, American Ex-Prisoner of 
  War............................................................    14
    Prepared statement...........................................    16
Rowan, John, National President, Vietnam Veterans of America.....    17
    Prepared statement...........................................    19
Kemp, Edward W., National Commander, AMVETS......................    25
    Prepared statement...........................................    26

                                APPENDIX

The VVA 2006 Legislative Agenda & Policy Initiatives brochure....    43

 
    LEGISLATIVE PRESENTATIONS OF THE NATIONAL ASSOCIATION OF STATE 
DIRECTORS OF VETERANS AFFAIRS, THE AMVETS, THE AMERICAN EX-PRISONERS OF 
                WAR, AND THE VIETNAM VETERANS OF AMERICA

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Larry E. 
Craig (Chairman of the Committee) presiding.
    Present: Senators Craig, Akaka, Salazar, and Obama.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Well, good morning, ladies and gentlemen 
and fellow Americans. Welcome to the Committee on Veterans' 
Affairs. The Committee will now be in order.
    It is my pleasure to welcome all of you here today. I would 
like to single out a person in your membership who is a 
personal friend of mine that we have worked with over the years 
who represents my home State all so well. I said hello to him a 
few moments ago, Herb Kerchoff, National Director of the 
Northwest Region, American Ex-Prisoners of War. Herb, thank 
you.
    Herb is from beautiful Couer d'Alene, Idaho. For those of 
you who have not been there, this is a personal invitation from 
Herb to visit him.
    I wish to thank all of you for your fine service and that 
service that you have rendered veterans in your respective 
communities over the years. Your valuable contributions of 
service to many of our veterans is greatly appreciated.
    The past year has been an extremely gratifying one for me, 
my first as Chairman of the Veterans' Affairs Committee here in 
the Senate. I sincerely believe that this Committee and its 
Members, while sometimes differing in approach, are all united 
in one common mission: ensuring that our Nation's veterans, 
particularly veterans wounded in the line of duty receive the 
highest quality health care and benefits that they need. By any 
measure, we have had a very busy and productive first session, 
convening 23 hearings here in Washington, nine field hearings, 
and four mark-ups.
    More importantly, the committee-related activity has led to 
several what I think are extremely important accomplishments. I 
am going to single out one of those accomplishments in 
particular that deserves special attention because some of you 
were instrumental in securing its enactment. About a year ago, 
I walked into my office to meet three veterans of Operation 
Iraqi Freedom. One of them was missing a leg. Another was 
missing both legs, and the third had lost his sight. They asked 
that I sponsor legislation to create a new insurance benefit 
for traumatic injuries such as theirs, but not for them, mind 
you, but for their fellow compatriots and for future severely 
wounded service Members, and here is the result that we can all 
be proud of:
    Earlier this month, VA has now paid out to almost 1,500 
traumatically injured members from OIF and OEF. These are young 
men and women with amputations, severe burns, total blindness, 
total deafness, paralysis, and a host of other disabilities, 
all of them sustained in defense of America. Going forward, 
Wounded Warriors Insurance will fill the gap in financial help 
that these heroes need and faced during their convalescence. 
Thank you for helping us get that done.
    Let me touch on what has consumed much of our attention of 
late, the fiscal year 2007 VA budget. I believe this record 
budget is extraordinary. The Senate-passed budget resolution 
would provide VA health care systems a 12.4 percent increase in 
direct appropriations. That would mean that since 2001, VA 
health care budgets have increased by nearly 70 percent. At 
these rates, the cost of VA medical care will double every 6 
years. There is almost no other area of the Federal budget that 
has experienced that kind of increase.
    Yes, if what is demonstrated continues in a fiscal austere 
climate, the President and us and you have a challenge to 
sustain this level of spending--a top budget priority of this 
President, a top budget priority of ours. That said, I am 
concerned that at the present spending rates, VA budgets will 
soon collide with spending demands in other areas of the 
government. Although we may wish that VA funding exists in a 
vacuum, you and I both know it does not and I am sure that 
everyone here is aware that the President has proposed one way 
for us to respond to some of these realities, by asking 
Priority Seven and Eight veterans with no service-
related disabilities to contribute about $21 per month to 
enroll in the VA health care system and to pay $15 for a 30-day 
supply of medicine.
    While these proposals did not survive in the budget 
resolution, they reflect a fiscal reality of limited resources 
that we must face someday. I personally find these proposals to 
be reasonable, and while I know that many in your organizations 
voiced concern and even opposed, I reiterate, my hope is that 
VSOs and others will engage this Committee in serious and 
candid discussion if not about the President's proposal, then 
about other options.
    It is our collective responsibility to sustain this 
incredible VA health care system today and for future needs. If 
we begin addressing these issues now, we can help ensure that 
future veterans will not be faced with even bigger challenges 
and more radical changes to meet those challenges. Personally, 
I do not want to pass this issue on to the next guy or gal that 
may chair this Committee. I want to pass on to tomorrow's 
veterans what we have collectively created, a health care 
system that provides quality care, that is accessible to those 
who need it, but affordable to those who want it. I hope you 
agree with my goals and are willing to work with me and my 
colleagues on this effort.
    Today, we have four distinguished members of the veterans 
community testifying. They are George Basher, National 
President, National Association of State Directors of Veterans 
Affairs; Gerald S. Harvey, National Commander, American Ex-
Prisoners of War; John Rowan, National President, Vietnam 
Veterans of America; and Edward Kemp, National Commander for 
AMVETS.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator from Idaho
    Good morning, ladies and gentlemen. The Committee on Veterans' 
Affairs will now come to order. It is my pleasure to welcome all of you 
here today. I'd like to single out a person of your membership from my 
home State of Idaho who is in attendance:
    Mr. Herb Kirchhoff, National Director of the Northwest Region, 
American Ex-Prisoners of War. He is from Coeur D'Alene, Idaho. I wish 
to thank all of you for the fine service you render the veterans in 
your respective communities. Your valuable contributions of service to 
many of our veterans is greatly appreciated.
    The past year has been an extremely gratifying one for me . . . my 
first as Chairman of the Veterans' Affairs Committee. I sincerely 
believe that this Committee and its Members, while sometimes differing 
in approach, are all united in one, common mission: ensuring that our 
nation's veterans--particularly veterans wounded in the line of duty--
receive the highest quality of health care and benefits that they need.
    By any measure, we have had a busy and productive first session, 
convening twenty-three hearings here in Washington, nine field 
hearings, and four markups. More importantly, committee-related 
activity has led to several important accomplishments.
    I am going to single out one accomplishment in particular that 
deserves special attention because some of you were instrumental in 
securing its enactment. About a year ago, I walked into my office to 
meet with three veterans of Operation Iraqi Freedom: one was missing a 
leg; another was missing two legs; and the third had lost his sight. 
They asked that I sponsor legislation to create a new insurance benefit 
for traumatic injuries such as theirs. Not for them, mind you. But for 
their fellow compatriots, for future severely wounded service members.
    And here is the result we can all be proud of: Earlier, this month, 
VA had paid almost 1,500 traumatically injured service members from 
OIF/OEF. These are young men and women with amputations, severe burns, 
total blindness, total deafness, paralysis, and a host of other 
disabilities . . . all of them sustained in defense of America. Going 
forward, ``Wounded Warrior'' insurance will fill the ``gap'' in 
financial help these heroes face during their convalescence.
    Let me touch on what has consumed much of our attention of late . . 
. the fiscal year 2007 VA budget. I believe this record budget is 
extraordinary. The Senate passed budget resolution will provide VA's 
health care system with 12.4 percent increase in direct appropriations. 
That would mean that since 2001, VA's health budget has increased by 
nearly 70 percent. At this rate the cost of VA medical care will double 
every 6 years. Yes, it conclusively demonstrates that in this fiscally 
austere climate, both the Senate and the President have chosen to make 
veterans, once again, a top budget priority.
    That said, I am concerned that at present spending rates, VA's 
budget will soon collide with spending demands in other areas of 
government. Although we may wish that VA funding existed in a vacuum, 
it simply does not.
    As I am sure everyone here is aware, the President had proposed one 
way for us to respond to these fiscal realities . . . by asking 
priority 7 and 8 veterans--with no service-related disabilities to 
contribute about $21 per month to enroll in the VA health care system 
and pay $15 for a 30-day supply of medicine. While these proposals did 
not survive in the Budget Resolution they reflect a fiscal reality of 
limited resources that we must face someday. I personally find these 
proposals to be reasonable, and while I know that many in your 
organizations voiced concern and even opposition I reiterate my hope 
that the VSOs and others will engage this Committee in serious and 
candid discussions . . . if not about the President's proposals, then 
about other options. It is our collective responsibility to sustain 
this incredible VA health care system into the future.
    If we begin addressing these issues now, we can help ensure that 
future veterans will not be faced with even bigger challenges and more 
radical changes to meet those challenges. Personally, I do not want to 
pass this issue on to the next guy. I want to pass on to tomorrow's 
veterans what we have collectively created, a health care system that 
provides quality care that is accessible to those who need it, but 
affordable to those who want it. I hope you agree with my goals and are 
willing to work with me and my colleagues in our efforts.
    Today we have four distinguished members of the veteran community 
testifying.
    They are: Mr. George Basher, President, National Association of 
State Directors of Veterans Affairs; Mr. Gerald S. Harvey, National 
Commander, American Ex-Prisoners of War; Mr. John Rowan, National 
President, Vietnam Veterans of America; and Mr. Edward W. Kemp, 
National Commander, AMVETS.

    Chairman Craig. Before I turn to our panelists this morning 
and testifiers, let me turn to the Ranking Member, Senator 
Danny Akaka of Hawaii. Danny and I work very closely together 
on all of the issues that pertain to veterans.
    Danny.

              STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. It has 
always been a pleasure for me to be part of this Committee and 
to work with you.
    Before I proceed with my statement, I just want to comment 
on the news we received this week. My counterpart in the House, 

Congressman Lane Evans, will be retiring at the end of this 
year. Congressman Evans is a true champion for veterans and I 
will greatly miss working with him. As a Vietnam-era Marine and 
an unyielding advocate for veterans and their families, Mr. 
Evans has done so much for our country's veterans. He is a true 
patriot and we will all miss his great leadership. I look 
forward to continuing to work with him this year and wish him 
my warmest aloha for the future.
    Mr. Chairman, it is certainly a pleasure to be here with 
our veterans. I want to thank the commanders and national 
presidents who are testifying here today, and my thanks go as 
well to all veterans and their families who have made the 
journey to the Nation's Capital to express their concerns. This 
truly is the democracy in action.
    Your organizations have a long and proud tradition of 
public service, and your advocacy on behalf of veterans is 
truly exemplary. This Committee relies heavily on your concerns 
and agendas for the coming year.
    I would like to share some of my concerns and priorities. 
During this time last year, many of us here in Congress were 
sounding the alarm that the VA budget was facing a crisis 
situation. Many months later, the Administration acknowledged 
this fact and Congress took action to provide emergency 
funding. Chairman Craig kept his promise and was a driving 
force behind that emergency funding.
    When we started working together last year, we pledged to 
work in a bipartisan manner, and we have done so. There are 
times, however, when we agreed to disagree. We both agree that 
veterans deserve to have the best health care, the best 
services, and the best benefits, though we sometimes disagree 
on how to pay for it. I want to be clear, however, that we have 
the same goal and that is to ensure that VA is provided with 
the resources to provide quality care and services to our 
Nation's veterans. I remain dedicated to ensuring that VA has 
the resources it needs to care for all veterans.
    We must learn a lesson from last year's budget crisis and 
do everything we can to ensure that veterans and their family 
members have access to the health care and benefits they have 
earned. VA's budget has increased for the past 6 years, as 
mentioned by the Chairman, since 2001. It has increased by 70 
percent, and this is as it should be.
    The cost of caring for our veterans is in my opinion a cost 
of war. If the Department of Defense's budget can grow 
exponentially and we fund it yearly out of supplementals, it 
makes sense that VA's budget needs to grow exponentially as 
well. It is no secret that each service member that we so 
readily fund out of DOD will eventually seek services from VA. 
It follows, then, that if DOD's budget grows steadily, VA's 
budget must grow steadily as well.
    For me, it is a matter of priorities. We must stand by our 
veterans and ensure that they receive the care and services 
that they have earned through their service to our country and 
we must ensure that we care for all veterans. We cannot fund 
the VA system out of the pockets of the middle income veterans 
as many of these men and women make as little as $27,000 a 
year. Higher copayments and enrollment fees are not justified. 
To date, over a quarter of a million veterans have been 
excluded from VA health care. We must work to overturn this 
Administration's decision and open the VA system up to those 
who need it.
    I also am concerned about the VA research program being 
slated for a cut under this budget. Since its inception, the VA 
research program has made landmark contributions to the welfare 
of not only veterans, but the entire Nation. Illustrating the 
unique importance of keeping it adequately funded with 
thousands of military personnel engaged in conflict overseas, 
it is vital that Congress invest in research that could have a 
direct impact on their post-
deployment quality of life.
    With regard to VBA budget, I am concerned whether or not 
this budget provides an adequate level of staffing for 
compensation claims rating. VA must be ready to adjudicate 
claims in a timely and accurate manner. I believe that VA must 
begin to hire additional staff now to handle the anticipated 
influx of new claims from recently separated service members.
    In closing, I would like again to thank the witnesses and 
all who are here with us today. Your service, your dedication 
to this Nation and its veterans is unquestionable. I look 
forward to your presentation and working with you in the 
future.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Akaka follows:]
  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator from Hawaii
    It is certainly a pleasure to be here today. I want to thank the 
Commanders and National Presidents testifying today. My thanks go as 
well to all the veterans and their families who have made the journey 
to the Nation's capital to express their concerns. This is truly 
democracy in action. Your organizations have a long and proud tradition 
of public service and your advocacy on behalf of veterans is truly 
exemplary. This Committee relies heavily on your concerns and agendas 
for the coming year.
    I would like to share some of my concerns and priorities. During 
this time last year, many of us here in Congress were sounding the 
alarm that the VA budget was facing a crisis situation. Many months 
later, the Administration acknowledged this fact and Congress took 
action to provide emergency funding. Chairman Craig kept his promise 
and was a driving force behind the emergency funding. When we started 
working together last year, we pledged to work in a bipartisan manner. 
And we have done so.
    There are times, however, when we agree to disagree. We both agree 
that veterans deserve to have the best health care, services, and 
benefits. Though, we sometimes disagree on how to pay for it. I want to 
be clear, however, that we have the same goal and that is to ensure 
that VA is provided with the resources to provide quality care and 
services to our Nation's veterans.
    I remain dedicated to ensuring that VA has the resources it needs 
to care for all veterans. We must learn a lesson from last year's 
budget crisis and do everything we can to ensure that veterans and 
their family members have access to the health care and benefits they 
have earned.
    VA's budget has increased over the past 6 years. This is as it 
should be. The cost of caring for our veterans is, in my opinion, a 
cost of war. If the Department of Defense's budget can grow 
exponentially, and be funded yearly out of supplementals, it only makes 
sense that VA's budget needs to grow exponentially as well. It is no 
secret that each servicemember that we so readily fund out of DOD will 
eventually seek services from VA. It follows then, that if DOD's budget 
grows steadily, VA's budget must grow steadily as well. For me, it is a 
matter of priorities--we must stand by our veterans and ensure that 
they receive the care and services that they have earned through their 
service to our country. And we must ensure that we care for all 
veterans.
    We cannot fund the VA system out of the pockets of ``middle-
income'' veterans, as many of these men and women make as little as 
$27,000 a year. Higher copayments and enrollment fees are not 
justified. To date, over a quarter of a million veterans have been 
excluded from VA health care. We must work to overturn this 
Administration's decision and open the VA system up to those who need 
it.
    I also am concerned about the VA Research program being slated for 
a cut under this budget. Since its inception, the VA research program 
has made landmark contributions to the welfare of not only veterans, 
but the entire Nation, illustrating the unique importance of keeping it 
adequately funded. With thousands of military personnel engaged in 
conflict overseas, it is vital that Congress invest in research that 
could have a direct impact on their post-deployment quality of life.
    With regard to the VBA budget, I am concerned whether or not this 
budget provides an adequate level of staffing for compensation claims' 
rating. VA must be ready to adjudicate claims in a timely and accurate 
manner. I believe that VA must begin to hire additional staff now to 
handle the anticipated influx of new claims from recently separated 
servicemembers.
    In closing, I would like once again to thank the witnesses and all 
who are here with us today. Your service and dedication to this Nation 
and its veterans is unquestionable. I look forward to your presentation 
and working with you in the future.

    Chairman Craig. Senator Akaka, thank you, and let me join 
with the Senator in his expression and recognition of 
Congressman Lane Evans and his retirement. He clearly has been 
a dedicated public servant with veterans foremost in his mind 
almost his entire service period here, and we have had the 
opportunity to work with him. We will miss him in his 
retirement.
    Let me also add before we turn to our panelists, Senator 
Akaka and I insisted last year with the budget difficulties we 
had with the VA that they change their practices and their 
habits and that they report to us on a quarterly basis of their 
spend-down and their needs, and they are now doing that. 
Yesterday before the Subcommittee of MILCON, which is MILCON 
and Veterans Affairs that I serve on in Appropriations, we took 
testimony from the Secretary. Not only did he refer to that 
effort that Senator Akaka and I insisted upon, but they are now 
reporting monthly to OMB, the Office of Management and Budget.
    This is without question a new precedent for them. It will 
help us shape and understand their needs much more clearly. It 
will allow us to read trend lines of growth and demand or the 
lack of demand. It will show all of those factors, and I think 
that that is a very positive step, and Senator Akaka and I 
insisted that that be a part of the way that we would deal with 
VA and the only way we would deal with VA when it came to 
budget matters, open, transparent, and timely reporting as to 
their fiscal needs.
    Now let us turn to all of you witnesses and, again, we 
thank you so very much for being with us this morning. Let me 
first turn to George Basher, President, National Association 
for State Directors of Veterans Affairs.
    George, welcome before the Committee.

STATEMENT OF GEORGE BASHER, PRESIDENT, NATIONAL ASSOCIATION OF 
              STATE DIRECTORS OF VETERANS AFFAIRS

    Mr. Basher. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished Members of the Committee, as 
President of the National Association of State Directors of 
Veterans Affairs, I thank you for the opportunity to testify 
and present the views of the State Directors of all 50 States, 
our commonwealths and our territories. As the Nation's second 
largest provider of services to veterans, spending over three 
and a half billion dollars this year, State Government's role 
continues to grow. We believe it is essential for Congress to 
understand this role and ensure we have the resources to carry 
out our responsibilities. We partner very closely with the 
Federal Government in order to best serve our veterans, and as 
partners, we are continuously striving to be more efficient in 
delivering services to veterans.
    We greatly appreciate the leadership of Chairman Craig and 
Ranking Member Akaka and the entire membership of the Senate 
Veterans' Affairs Committee for their past support of building 
on the Administration's budget and hope that it continues. 
Because of the war on terror, we are now serving a new 
generation of veterans. They will need our help as they return 
to civilian life, and we believe, therefore, that there will be 
an increased demand for certain benefits and services, and the 
overall level of health care funding proposed by the 
Administration must meet that demand while continuing to serve 
those veterans already under VA care.
    The State Directors support the Capital Asset Realignment 
for Enhanced Services, CARES, process, and we urge that the 
capital funding required for implementation be included over a 
reasonable period of time to enable these recommendations to be 
realized. We recommend an in-depth examination of long-term 
care of mental health services. The CARES Commission review did 
not include long-term care of mental health services, but it 
did recommend further study of both areas. To that end, we ask 
again that a study be done to thoroughly examine veterans' 
long-term care and continue the study currently being done in 
mental health service needs to include gap analysis clearly 
identifying where services are lacking.
    The CARES report recognized State veteran homes as a 
critical component of veteran long-term health care and a model 
of cost efficient partnership between Federal and State 
Governments. These State nursing care facilities and 
domiciliaries bear over half the national long-term health care 
workload for our infirm and aging veteran population. Forty-
eight States provide care for more than 27,500 veterans in 120 
homes.
    We urge you to continue to oppose proposals that jeopardize 
the viability of our State veteran homes. State tax payers have 
supported the State homes through their 35 percent share of 
construction costs with an understanding that the Federal 
Government will continue to make its contribution through per 
diem payments.
    Since 1977, State construction grant requests have 
consistently exceeded congressional appropriations for the 
program. According to the fiscal year 2006 priority list, 
pending programs, there are 80 projects in Priority Group One 
with State matching funds of $226 million for a Federal match 
of $420 million. Any grant moratorium or lessening only 
exacerbates an already underfunded program where the fiscal 
year 2006 appropriation is only 85 million.
    The success of VA's effort to meet the current and future 
long-term care needs of veterans is contingent on resolving the 
current mismatch between demand and available funding. We 
recommend this issue be included in any long-term care study 
undertaken.
    We support increasing the per diem payment to one-half of 
the national average annualized for cost in State veteran 
homes. Current law allows VA to pay per diem up to one-half the 
cost of care of a veteran in a State home; however, in the 
first quarter of 2005, the VA per diem payment amounted to only 
31 percent of the daily average cost of nursing home care. We 
ask that the per diem for both programs be increased to one-
half the national average annualized cost of providing care.
    We support Medicare subvention. We recommend veterans 
medication purchase option be implemented for Priority Group 7 
and 8 enrollees. Under the compensation and pension benefits 
area, we support consideration of a greater role for State 
Director Divisions of Veteran Affairs in the overall efforts to 
manage and administer claims processing regardless of whether 
the State uses State employees, veteran service organizations, 
or county veteran service officers. As noted in the recent VA 
Inspector General review of variances, veteran access to 
competent claim assistance is still very much an action of 
geography, and this organization stands ready to assist VA in 
alleviating that condition.
    We strongly support improving and providing a seamless 
transition and help our returning service members' transition 
back into civilian life and also support veterans preference 
with regard to employment.
    Mr. Chairman and distinguished Members of the Committee, we 
respect the important work that you have done to improve and 
support veterans who have answered the call to serve our 
Nation. State Directors of Veterans' Affairs remain dedicated 
to doing our part. We urge you to be mindful of the increasing 
financial challenge that States face just as you address the 
fiscal challenges at the Federal level. We are dedicated to our 
partnership with the VA in the delivery of service and care to 
our Nation's veterans.
    This concludes my statement, and I am ready to answer any 
questions you might have.
    [The prepared statement of Mr. Basher follows:]
 Prepared Statement of George Basher, President, National Association 
                 of State Directors of Veterans Affairs
                              introduction
    Mr. Chairman and distinguished Members of the Committee, as 
President of the National Association of State Directors of Veterans 
Affairs (NASDVA) I thank you for the opportunity to testify and present 
the views of the State Directors of all 50 states, commonwealths, and 
territories.
    As the nation's second largest provider of services to Veterans, 
State governments' role continues to grow. We believe it is essential 
for Congress to understand this role and ensure we have the resources 
to carry out our responsibilities. We partner very closely with the 
Federal Government in order to best serve our veterans and as partners, 
we are continuously striving to be more efficient in delivering 
services to veterans.
    We greatly appreciate the leadership of Chairman Craig and Ranking 
Member Akaka and the entire Membership of the Senate VA Committee for 
their past support of building upon the administration's budget and 
hope that it continues. Because of the War on Terror, we are now 
serving a new generation of veterans. They are going to need our help 
as they return to civilian life. We believe, therefore, that there will 
be an increased demand for certain benefits and services and the 
overall level of health care funding proposed by the administration 
must meet that demand while continuing to serve those veterans already 
under VA care.
                 veterans health benefits and services
    NASDVA supports the Capital Asset Realignment for Enhanced Services 
(CARES) process.
    Capital Asset Realignment for Enhanced Services (CARES): We were 
generally pleased with the report and recommendations made in the final 
plan. We also support the process for planning at the remaining 18 
sites and the direction it will move VA as a national system. We urge 
that capital funding required for implementation be included over a 
reasonable period of time to enable these recommendations to be 
realized.
    NASDVA supports the opening of additional Community-Based 
Outpatient Clinics (CBOCs). We would like to see the new priority CBOCs 
deployed rapidly with appropriate VA Medical Center (VAMC) funding.
    Community-Based Outpatient Clinics (CBOCs): Continued development 
of CBOCs has greatly improved veterans' access to VA health care. We 
continue to encourage rapid deployment of new priority clinics over the 
next few years with the corresponding budget support to VAMCs. VA needs 
to quickly develop these additional clinics, to include mental health 
services. We encourage the investment of capital funding to support the 
many projects recommended by CARES. We support VA contracting-out some 
specialty care to private-sector facilities where access is difficult. 
Likewise we would like to see this process continue in fiscal year 
2007, with sufficient funding in the budget.
    NASDVA recommends an in-depth examination of long-term care and 
mental health services.
    Long-Term Care and Mental Health Services in CARES Initiatives: The 
CARES Commission review did not include long-term care or mental health 
services, but did recommend further study of both areas. To that end, 
we again ask that a study be done to thoroughly examine veterans' long-
term care and continue the study currently being done on mental health 
care needs, to include gap analysis clearly identifying where services 
are lacking. The CARES report recognized State Veterans Homes (SVHs) as 
a critical component of veterans' long-term health care and a model of 
cost-efficient partnership between Federal and State governments. These 
State nursing care facilities and domiciliaries bear over half of the 
national long-term health care workload for our infirm and aging 
veteran population. Forty-eight (48) States provide care for more than 
27,500 veterans in 120 SVHs. We urge you to continue to oppose 
proposals that jeopardize the viability of our SVHs. State taxpayers 
have supported the SVHs through its 35 percent share of construction 
costs with an understanding that the Federal Government would continue 
to make its contribution through per diem payments. The Federal 
Government should continue to fulfill its important commitment to the 
states and ultimately to the individual veterans in need of care.
    NASDVA continues its strong support for the State Home Construction 
Grant Program. The annual appropriation for this program should be 
continued and increased. Based on the reduction in funding in fiscal 
year 2006, we recommend that the amount in fiscal year 2007 be 
increased to $115 million. Re-ranking of projects should be eliminated 
once a project is established as Priority group 1 (state matching funds 
are available).
    Funding of the State Homes Construction Grant Program. Since 1977, 
state construction grant requests have consistently exceeded 
Congressional appropriations for the program. According to the fiscal 
year 2006 Priority List of Pending State Home Construction Grant 
Applications, there are 80 projects in Priority group 1 with state 
matching funds of $226M for a Federal match of $420M. Any grant 
moratorium only exacerbates an already under-funded program, where the 
fiscal year 2006 appropriation was only $85M. This deficit in Federal 
program support causes long delays in the establishment of long-term 
care beds in areas where these services are badly needed by an aging 
veteran population. We recommend rejection of any proposed moratorium 
and an increase in funding.
    The success of VA's efforts to meet the current and future long-
term care needs of veterans is contingent upon resolving the current 
mismatch between demand and available funding. We recommend this issue 
be included in any long-term care study undertaken.
    Ranking of State Home Construction Projects. Priority groups for 
construction or acquisition of SVHs are established in 38 CFR, Chapter 
59.50. States that have applied and made matching funds available for 
projects are ranked Priority group 1. Due to insufficient funding each 
budget year, some Priority group 1 projects do not receive Federal 
funding and are then subject to reprioritization the following budget 
year. Since these projects have state funds committed, they should 
maintain their ranking in Priority group 1 except for new projects that 
are for ``life and safety'' issues.
    NASDVA supports full reimbursement for care in SVHs for veterans 
who have a 70 percent or more service-connected disability or who 
require nursing home care because of a service-connected disability.
    Full Reimbursement for Cost of Care for Qualifying Veterans in 
SVHs: The November 1999 Millennium Act requires VA to provide nursing 
home care to those veterans who have a 70 percent or more service-
connected disability or who require nursing home care because of a 
service-connected disability. VA provides nursing home services through 
three national programs: VA owned and operated nursing homes, SVHs 
owned and operated by the state, and contract community nursing homes. 
VA General Counsel interpretation of the law allows only contract 
community facilities to be reimbursed for full cost of care. SVHs 
merely receive per diem towards the cost of care, requiring the veteran 
to make a co-payment. This is unfair to those veterans who are eligible 
for full cost of care, but prefer to reside in a SVH.
    NASDVA supports increasing per diem to provide one-half of the 
national average annualized cost of care in a SVH.
    Increase in Per Diem Payments to SVHs. Current law allows VA to pay 
per diem up to one-half of the cost of care each day a veteran is in a 
SVH. However, in 1QTR fiscal year 2005, VA per diem amounted to only 31 
percent of the average daily cost of nursing home care ($185.56) and 
only 25 percent of the average daily cost of domiciliary care ($119.94) 
in a SVH. We ask that per diem for both programs be increased to one-
half of the national average annualized cost of providing care, as the 
SVH program is the most cost effective nursing care alternative used by 
VA.
    NASDVA supports VA Medicare Subvention. We recommend a veterans' 
medication purchase option be implemented for Priority group 7 and 8 
enrollees who only seek medications. We request continued protection of 
the Federal Supply Schedule for VA/DOD pharmaceuticals.
    Medicare Subvention. We recommend that VA implement a Medicare 
Subvention program similar to the unrealized ``VA Advantage'' Program. 
Working with the Department of Health and Human Services, this program 
will allow Priority group 8 veterans aged 65 and older to use their 
Medicare benefits to obtain VA health care. VA would receive Medicare 
payments to cover its costs. This is an HMO concept we have supported, 
however, we are concerned about the delay in implementation of a pilot. 
It was our understanding 2 years ago that this program would be 
available to veterans within a few months. Another year has now passed 
without implementation.
    Optional Purchase of VA Medications. NASDVA requests Secretary 
Nicholson consider a veterans' medication purchase option. Large 
numbers of Priority group 7 and 8 enrollees are seeking prescription 
drugs; they do not necessarily seek access to the VA health care 
system. A medication only purchase program could separate this 
population from the enrollee lists and reduce backlogs, assisting VA in 
delivering services to the core constituency of service-connected 
veterans. Such a plan would provide veterans an attractive alternative 
to Medicare Part D funding for pharmaceuticals.
    Protection of VA Pharmaceutical Costs. NASDVA requests continued 
protection of the Federal Supply Schedule 'FSS) for VA/DOD 
pharmaceuticals. While we support the goal of reduced drug prices for 
all Americans, we are concerned that if the FSS prices were extended to 
Medicare recipients or other entities, it would result in increased 
prices for VA/DOD, diverting millions of dollars from health care 
funding for veterans.
    NASDVA supports continued efforts to reach out to veterans. This 
should be a partnership between VA and the State Departments of 
Veterans Affairs (SDVAs).
    Outreach to Veterans. While growth has occurred in VA health care 
due to improved access to CBOCs, many areas of the country are still 
short-changed due to geography and/or due to veterans' lack of 
information and awareness of their benefits. VA and SDVAs must reduce 
this inequity by reaching out to veterans regarding their rights and 
entitlements. NASDVA supports implementation of a grant program that 
would allow VA to partner with the SDVAs to perform outreach at the 
local level. There is no excuse for veterans not receiving benefits to 
which they're entitled simply because they are unaware of those 
benefits.
                   compensation and pension benefits
    NASDVA supports considerations of a greater role for SDVAs in the 
overall effort to manage and administer claims processing, regardless 
of whether the state uses state employees, Veterans Service 
Organizations 'VSOs), and /or County Veterans Service Officers 'CVSOs).
    Restructured Claims Management. Recent studies regarding claims 
processing have all noted that VA needs to make better use of the 
assets of the State government and VSOs to assist in claim processing. 
One example is the October 2001 Claim Processing Task Force Report to 
the Secretary, which stated:

          ``The full partnership and cooperation of VBA and Veterans 
        Service Organizations 'VSOs) are vital elements in assuring 
        timely service to the veteran. A well-developed network of VSOs 
        and State Departments of Veteran's Affairs (SDVAs) should be 
        encouraged to cooperatively enhance the delivery of services to 
        veterans. Service organizations can help improve service to 
        beneficiaries and increase veteran satisfaction by providing 
        assistance in gathering evidence for the development of a well 
        documented and ``ready-to-rate'' claim, helping deter frivolous 
        claims, and by providing timely information on claim status.''

    Additionally, as noted in the recent VA Inspector General's Review 
of State Variances in VA Compensation Payments, veteran access to 
competent claim assistance is still very much an accident of geography. 
Effective advocacy for veterans from initiation of a claim to a VA 
decision can improve sufficiency and timeliness of claims. Numerous 
studies indicate ``well-developed'' claims produce better outcomes for 
veterans in a shorter time and at a lower cost to VA.
    The SDVAs, nationally chartered VSOs, and county veteran service 
officers have the capacity and capability to assist VA. NASDVA can be 
an effective partner with VA to establish and achieve higher 
performance standards in claims preparation. SDVAs could assume a role 
in more effective and comprehensive training programs and certification 
of service officers to ensure competence and technical proficiency in 
claims preparation. We can support VA in its ``duty to assist'' without 
diminishing our role as the veterans' advocate.
    For all the reports and testimony to the contrary, VBA has not been 
very successful in making effective use of the state/county/VSO system 
of service officers and counselors. Under the current system of claims 
processing, the interface between VBA and those who represent veterans 
is clumsy and poorly integrated. We recommend VBA explore methods of 
integrating its existing and future applications and its business 
process with those state, county, and VSO personnel supporting claim 
processing. We further recommend the establishment and enforcement of 
uniform training programs and performance measures for all personnel 
involved in the preparation of veteran claims.
    NASDVA strongly supports passage of legislation to eliminate the 
time-phased concurrent receipt of military retirement pay and service-
connected disability compensation.
    We appreciate the fiscal year 2005 Defense Authorization Act 
authorizing full concurrent receipt of retired pay and disability 
compensation for retirees with 100 percent VA disability ratings. We 
are disheartened, however, by the DoD decision to exclude the 30,000 
retirees currently rated as ``unemployable'' and receiving disability 
compensation at the 100 percent rate. This decision should be based on 
fairness, not budgetary constraints.
    NASDVA strongly supports passage of legislation to eliminate the 
time-phased concurrent receipt of military retirement pay and service-
connected disability compensation. These are both earned entitlements 
and should apply to all retired veterans, regardless of their level of 
disability.
                      burial and memorial benefits
    NASDVA recommends and increase in the plot allowance for all 
veterans to $1000 per interment. We strongly support an increase in 
funding for the State Cemetery Grant Program. A new Federal/State 
national Cemetery Administration 'NCA) grant program could be 
established to support state costs.
    Increase in Burial Plot Allowance. The average operational cost of 
interment in a state veterans' cemetery is $2000. This adds to the 
fiscal burden of many SDVAs. The current burial plot allowance of $300 
per qualified interment provides 15 percent of the average cost of 
interment. NASDVA recommends the Plot Allowance be increased to $1000 
in order to offset operational costs. The increase should also apply to 
the plot allowance for veterans' interment in private cemeteries.
    Increased Funding for State Veterans Cemetery Grant Program (SCGP). 
The State Veterans Cemetery Grant Program (SCGP) has greatly expanded 
the SDVAs' ability to provide gravesites for veterans and their 
eligible family members in those areas where national cemeteries cannot 
fully satisfy burial needs, particularly in rural and remote areas of 
the country. The existing State Cemetery Grant Program has allowed the 
number of state cemeteries to grow by nearly 40 percent over the past 5 
years with a corresponding increase in interments. Currently there are 
some 40 project pre-applications pending totaling $160M. We ask that 
SCGP funding be increased to $50M.
    Establishment of a State Veterans Cemetery Operations Grant 
Program. SDVAs are provided construction grants for veterans' 
cemeteries and a limited burial plot allowance as discussed above to 
partially offset the cost of interment. Operational costs for both 
state and national veterans' cemeteries continue to rise. However, once 
a state establishes a state veterans' cemetery there is no further 
source of Federal funding to defer operational costs. NASDVA recommends 
the establishment of a Federal grant program to assist state veterans' 
cemeteries with operational costs.
                      homelessness among veterans
    NASDVA supports efforts to diminish the national disgrace of 
homelessness among veterans. SDVAs would prefer an active role in 
allocating and distributing per diem funds for homeless veterans to 
non-profit organizations, ensuring greater coordination, fiscal 
accountability, and local oversight of the services provided.
    Homeless Providers Grant and Per Diem Program: VA grants greatly 
assist states in reducing homelessness among veterans and we urge an 
increase in per diem 'currently $27.44) to ensure appropriate support 
services at transition facilities. Additionally, NASDVA recommends VA 
partner with SDVAs in the process of allocating and distributing per 
diem funds to non-profit organizations. This would create an 
appropriate level of accountability and collaboration between non-
profit agencies and SDVAs, ensuring funding is used to provide care to 
veterans in the program in a most effective manner.
                      seamless transition and jobs
    NASDVA strongly supports improving upon and providing ``Seamless 
Transition'' to help our service members' transition into civilian 
life.
    We support the expansion of the Transition Assistance Program 
'TAP). Efforts need to be made to maximize the integration of services 
provided by the DoD, VA and State and Local Governments. It must be 
recognized that no single agency can adequately meet the transition 
needs of our returning service members.
    NASDVA strongly supports Veterans' preference with regard to 
employment.
    We support full implementation of existing programs and laws with 
regard to veterans' preference to ensure our returning veterans have 
every opportunity available in their transition into civilian life. We 
also support incentives to businesses that hire veterans.
                               conclusion
    Mr. Chairman and distinguished Members of the Committee, we respect 
the important work that you have done to improve support to veterans 
who have answered the call to serve our nation. NASDVA remains 
dedicated to doing our part, but we urge you to be mindful of the 
increasing financial challenge that states face, just as you address 
the fiscal challenge at the Federal level. We are dedicated to our 
partnership with the VA in the delivery of services and care to our 
Nations Veterans.
    This concludes my statement and I am ready to answer any questions 
you may have.

    Chairman Craig. George, thank you very much for that 
statement, and to all of our panelists, your full written 
statements will be a part of the record.
    Before I turn to you, Gerald, let me recognize one of our 
colleagues that has joined us for any opening comments he would 
like to make, Senator Ken Salazar of the State of Colorado.
    Ken.

   STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Craig and 
Senator Akaka, for holding today's hearing. I want to thank the 
members of the National Association of State Directors of 
Veterans Affairs, the AMVETS, the American Ex-Prisoners of War, 
and the Vietnam Veterans of America for coming here today. Your 
presence here today and your testimony will ensure that we here 
at the United States Senate do the very best that we can to 
fulfill our Nation's promise to the veterans of America.
    I have a longer statement, Mr. Chairman, and I will submit 
that for the record, but again, I just want to welcome all of 
you and say thank you for being here to provide your testimony 
today.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator from Colorado
    Thank you, Chairman Craig and Senator Akaka for holding today's 
hearing. As a relatively new Member of this Committee, I have found 
these hearings incredibly helpful as I further my understanding of the 
issues that are uniquely important to our veterans.
    With that in mind, I want to thank the members of the National 
Association of State Directors of Veterans Affairs, the AMVETS, the 
American Ex-Prisoners of War, and the Vietnam Veterans of America for 
coming here today to talk about the legislative issues that are so 
important to them--and to us as Members of this Committee. We certainly 
value what you have to say; we are here to represent you by doing 
everything we can to ensure that you receive the best support our 
nation can provide.
    We've now had several hearings on this year's budget proposal for 
the Department of Veterans' Affairs, and we've had an opportunity to 
evaluate the budget from the varied perspectives of a diverse range of 
our nation's prominent veterans' groups. Yet at each of these hearings, 
we seem to be hearing the same thing--that while the 2007 budget 
proposal for Veterans' Affairs is better than last year, it remains 
deficient in a number of critical respects.
    For example, this Administration wants to generate revenue and 
decrease costs by establishing enrollment fees and doubling 
prescription drug co-payments for Priority 7 and 8 veterans. As I've 
said before, this is an unacceptable solution. While I certainly 
understand the need to focus our services on those veterans who need 
the most help, we cannot turn our backs on the promises we have made to 
provide all our veterans with the high-quality healthcare they deserve. 
For that reason, I oppose these enrollment fees and co-pay increases.
    Another troubling aspect of this budget proposal is the revelation 
that, beyond fiscal year 2008, it projects drastic cuts in VA funding. 
Whether or not this is an accurate reflection of the intentions of this 
Administration, the fact remains: deep budget cuts for veterans' 
services and cynical budget shell games are equally unacceptable. We 
need to provide for our veterans each and every year. We also need to 
be honest about the challenges we face when it comes to future deficits 
and their potential impact on the quality of healthcare services we can 
provide.
    In my view, the way to solve this problem is to provide mandatory 
funding for VA healthcare. I have co-sponsored legislation that would 
make this goal a reality, and I will continue to push for mandatory 
funding for VA because I believe it is the best way to provide for the 
ever-growing needs of our veterans.
    In addition, there are a number of benefits issues that must be 
addressed immediately. We need to end the disability tax on veterans 
and allow full concurrent receipt immediately. And we must support our 
military survivors by allowing them to receive compensation in the 
event that their spouse passes away due to service-related causes--
compensation that does not interfere with the survivors' insurance 
their spouse paid into while he or she was alive.
    Finally, I'd like to express a general concern about our national 
veterans' policies. Specifically, I am concerned that these policies 
fail to meet the needs of a particularly vulnerable veterans' 
population--veterans living in rural communities. In my home state of 
Colorado, some veterans have to travel hundreds of miles to receive 
treatment from VA facilities. We need to be aware of the challenges our 
rural veterans face, and we need to make sure the Federal agencies 
responsible for assisting them are adequately equipped to meet their 
needs. That's why I recently introduced legislation with Senator Thune 
and several other Members of this Committee to ensure the VA is 
sufficiently targeting its efforts toward rural veterans.
    As we continue to face these and other challenges, I want to again 
thank Chairman Craig and Senator Akaka for all they do as leaders of 
this Committee. I also want to thank you, our veterans, for your 
continued diligence in working to help us serve you better.
    Thank you.

    Chairman Craig. Ken, thank you very much.
    Now let us turn to Gerald Harvey, National Commander, 
American Ex-Prisoners of War.
    Gerald, welcome before the Committee.

STATEMENT OF GERALD S. HARVEY, NATIONAL COMMANDER, AMERICAN EX-
                        PRISONERS OF WAR

    Mr. Harvey. Chairman Craig, Ranking Member Akaka, 
distinguished Members of the Senate Veterans' Affairs 
Committee, and guests. I welcome the opportunity to speak on 
behalf of American Ex-Prisoners of War. We are deeply grateful 
for all that Congress and the VA have done for prisoners of war 
over the last 30 years.
    As you know, prior to that, POWs were an invisible part of 
this Nation's veterans. It has been incorrectly stated that we 
preferred it this way out of shame over being captured. This is 
not true. We are proud to have lost our liberty while defending 
the rights of all Americans to be free. We were so happy to be 
free, we simply wanted to enjoy that freedom at home with our 
families. As a result, we made few requests upon our government 
at that time.
    Public awareness about the plight of aging POWs in general 
was reawakened by the plight of Americans held for months and 
years by North Vietnam. Max Cleland--then VA Administrator and 
later Senator from Georgia, took the lead in correcting our 
country's failure to remember POWs from earlier wars, including 
World War II. For the first time, the identities of those 
captured, re-patriated, and currently alive were obtained from 
original military records. VA then immediately took steps to 
identify all POWs receiving health care or disability benefits. 
Congress too responded promptly and directed VA to conduct a 
review of all policies and procedures related to POWs. In a 
very real sense, POWs were changed to a high-priority group 
within VA and Congress.
    Over the past 30 years, many presumptives were established 
to simplify the process by which POWs could obtain needed 
disability benefits and medical care. The ongoing research 
conducted on POWs by the National Academy of Science provided 
the basis for these congressional and VA actions.
    At present, most of the long-term health problems 
associated with brutal and inhumane conditions of captivity 
have been identified and are presumptive. We urge Congress to 
act on the several remaining medical conditions identified in 
current legislation. The first of these, chronic liver disease, 
is simply a clarification of a current presumptive, cirrhosis 
of the liver. The National Academy of Science has stated in 
writing that this more accurately reflects their finding. 
Cirrhosis is simply the final stages of chronic liver disease.
    The second is diabetes. It has already been established for 
Vietnam Veterans exposed to certain chemicals and other 
factors, POWs were also exposed to adverse factors while in 
captivity that are related to diabetes.
    Third, osteoporosis, this is directly related to the 
absence of the calcium needed to maintain bone structure, a 
common situation for POWs. This condition becomes apparent 
after a bone break. Adjudicators typically already decide these 
claims for POWs. Making it a presumptive simplifies the process 
for adjudicators and POWs alike.
    H.R. 1598, introduced by Representative Michael Bilirakis, 
and S. 1271, introduced by Senator Patty Murray cover these 
presumptives. We call to your attention that there is virtually 
no increased cost to any of these proposed presumptives. Costs 
are more than offset by rapidly diminishing numbers of POWs 
already on the disability rolls or favorably acted on by VA 
adjudicators by a longer process of evaluation.
    Earlier this month, Senator Harry Reid introduced A. 2385, 
known as the Combat-Related Special Compensation Act. 
Representative Michael Bilirakis, a long-time advocate of 
concurrent receipt legislation, previously introduced the 
companion bill, H.R. 1366, in the House. It is currently before 
the Armed Services Committee. This legislation will amend some 
parts of the Combat-Related Special Compensation Act, Chapter 
61 of the Defense Authorization Act, to an earlier effective 
date of January 1, 2006. With a concurrent effective date of 
2014 and their advanced age, it is a statistical possibility 
World War II military retirees will not live to receive this 
deserved compensation.
    Representative Bob Filner introduced H.R. 2363 to provide 
for the Purple Heart to be awarded to prisoners of war who die 
in captivity. We ask the Committee to give their full support 
to these bills.
    In closing, I want to again express our deep appreciation 
for identifying POWs as a high priority and worthy segment of 
the veteran population. We are also grateful for VA's ongoing 
efforts to identify every POW and for them to be processed for 
VA benefits by adjudicators specially trained to handle POW 
claims.
    Thank you.
    [The prepared statement of Mr. Harvey follows:]
      Prepared Statement of Gerald S. Harvey, National Commander, 
                      American Ex-Prisoners of War
    Chairman Craig, Ranking Member Akaka, Distinguished Members of the 
Senate Veterans Affairs Committee and Guests: I welcome the opportunity 
to again speak on behalf of American Ex-Prisoners of War (POWs). We are 
deeply grateful for all that Congress and VA have done for POWs over 
the last 30 years. As you know, prior to that, POWs were an invisible 
part of this nation's veterans. It has been incorrectly stated we 
preferred it ``this way'' out of shame over being captured. This is not 
true, we are proud to have lost our liberty while defending the right 
of all Americans to be free. We were so happy to be free we simply 
wanted to again enjoy that freedom with our homes and families. As a 
result, we made few requests upon our government at that time.
    Public awareness about the plight of aging POWs in general was re-
awakened by the plight of the Americans held for months and years by 
North Vietnam. Max Cleland, then VA Administrator and, later, Senator 
from Georgia--took the lead in correcting our country's failure to 
remember POWs from earlier wars, including WWII. For the first time, 
Total Captured, Repatriated, and Currently Alive were obtained from 
original military records.
    VA then immediately took steps to identify all POWs receiving 
health care or disability benefits. Congress, too, responded promptly 
and directed VA to conduct a review of all policies and procedures 
relevant to POWs and established a POW Advisory Committee to review and 
advise VA and Congress on matters related to POWs. In a very real 
sense, POWs were changed to a high priority group within VA and 
Congress.
    Over the past 30 years many presumptives were established to 
simplify the process by which POWs could obtain needed disability 
benefits and medical care. The ongoing research conducted on POWs by 
the National Academy of Sciences provided the basis for these 
Congressional and VA actions. At present most of the long term health 
problems causally associated with the brutal and inhumane conditions of 
captivity have been identified and made presumptive.
    We urge Congress to act on the several remaining medical conditions 
identified in current legislation. The first of these, ``chronic liver 
disease'' is simply a clarification of a current presumptive--
``cirrhosis of the liver''. The National Academy of Sciences has stated 
in writing, this more accurately reflects their findings--cirrhosis is 
simply the final stage of chronic liver disease.
    The second is diabetes. It has already been established for Vietnam 
veterans exposed to certain chemicals and other factors. POWs were 
similarly exposed to adverse factors while in captivity that are 
causally related to diabetes.
    Third, osteoporosis. This is directly related to the absence of the 
calcium needed to maintain bone structure, a common situation for POWs. 
This condition becomes apparent after a bone break. Adjudicators 
typically already decide these claims for POWs. Making it a presumptive 
simplifies the process for adjudicators and POWs alike.
    H.R. 1598 introduced by Rep. Michael Bilirakis and S. 1271 
introduced by Senator Patty Murray cover these presumptives. We call to 
your attention that there is virtually no increased cost to any of 
these proposed presumptives. Costs are more than off-set by rapidly 
diminishing numbers of POWs already on the disability rolls or 
favorably acted on by VA adjudicators via a longer process of 
evaluation.
    Senator Harry Reid introduced S. 2385 earlier this month known as 
the Combat Related Special Compensation Act. Rep. Michael Bilirakis, a 
long time advocate of concurrent receipt legislation, previously 
introduced the companion bill H.R. 1366 in the House. It is currently 
before the Armed Services Committee. This legislation will amend some 
parts of The Combat Related Special Compensation Act chapter 61 of the 
Defense Authorization Act to an earlier effective date of January 1, 
2006. With the current effective date of 2014 and their current 
advanced age it is a statistical probability WWII military retirees 
will not live to receive this deserved compensation. Rep. Bob Filner 
introduced H.R. 2369 to provide for the Purple Heart to be awarded to 
prisoners of war who die in captivity. We ask the Committee to give 
their full support to these bills.
    In closing, I want to again express our deep appreciation for 
identifying POWs as a high priority and worthy segment of the veterans 
population. We are also gratified for VA's ongoing efforts to identify 
every POW and be processed for applicable VA benefits by adjudicators 
specially trained to handle POW claims.
    Note: '1) AXPOW receives no grants or funds from the Federal 
Government; '2) My curriculum vitae is that of service as a member and 
officer of AXPOW.

    Chairman Craig. Gerald, thank you. Thank you very much, 
Gerald.
    Now let us turn to John Rowan, National President of 
Vietnam Veterans of America. John, welcome again before the 
Committee. Good to see you.

 STATEMENT OF JOHN ROWAN, NATIONAL PRESIDENT, VIETNAM VETERANS 
                           OF AMERICA

    Mr. Rowan. Thank you, Chairman Craig. Thank you, Member 
Akaka.
    Chairman Craig. Is your microphone on, John?
    Mr. Rowan. Now, it is.
    Chairman Craig. There you go. Thank you.
    Mr. Rowan. I thought it was automatic. I was watching 
everything else.
    Anyway, starting again, thank you, Senator Craig, Chairman 
of the Committee, and Ranking Member Akaka and Senator Salazar 
for allowing us to testify here this morning. I am appreciative 
to be able to join my distinguished colleagues, and hearing 
their words, we support what they said before and I am sure 
what the gentleman from the AMVETS will say as well and, of 
course, the veterans that are here joining us this morning and 
their families and friends.
    Our testimony this year, our legislative agenda this year, 
was a little bit different. We really focused on three 
overarching issues, basically funding, which you had mentioned 
earlier, accountability, and outreach, and while we appreciate 
the increases that have been coming down the VA budget over the 
last several years, we believe it has only been a start to 
recoup from the losses we had suffered in the late nineties 
over several years of flat-line budgets.
    We also believe, quite honestly, that we predicate all of 
our discussions on what we believe is the looming health crisis 
and benefit crisis in the VA. Obviously the VA was not ready 
for a new war and all of the new men and women coming home from 
Iraq and Afghanistan and elsewhere around the world. More 
importantly, they weren't ready for the Vietnam Veterans. They 
weren't ready for our agent orange-related service-connected 
disabilities that are now showing up as we get into our fifties 
and early sixties. All of the diseases that are now 
presumptive, diabetes, prostate cancer, lung cancer, all of the 
many cancers are ravaging the Vietnam Veterans.
    Everybody talks, of course, because of the age of the World 
War II Veterans and how quickly they are dying off. We are 
dying off at a faster rate than any veterans previously ever 
recorded in the history of this country because of agent 
orange. ``The Veteran'', which is our national newspaper, every 
month comes out with hundreds of names of our own members, just 
our members, who are dying every month, and if you look at the 
ages and you look at the results and why, it is cancer, heart 
attack, cancer, cancer, diabetic-related problems, cancer, on 
and on.
    This is creating a health crisis, I believe, in the VA 
because they are not ready for us. The reason why they are not 
ready for us is because they never finished the National 
Vietnam Veterans Longitudinal Study that should have been 
finished 3 years ago that was mandated by Congress, which the 
VA has totally disobeyed. They disobeyed your order to do this 
study to find out what has been happening with Vietnam Veterans 
over time. The Australians did their study and they showed what 
happened, and they have been dealing with their veterans, but 
we haven't been dealing with ours.
    We think that our issues, our health care issues, are 
putting a substantial burden on the VA and will continue to do 
so over the next several years. What is really concerning to us 
is they are not doing outreach to these Vietnam Veterans. Many 
veterans don't belong to VSOs, don't belong to the VA and, 
therefore, don't understand when they get that prostate cancer, 
it has something to do with where they were 35 years earlier.
    It is not just the fiscal issue. It is a health care issue. 
We need to tell Vietnam Veterans in particular that they need 
to go to their doctors, whether they are VA or private, and get 
annual exams, detailed exams for all of the myriad of things 
that we unfortunately suffer from, and while the budget may be 
a problem and we understand the fiscal realities of life--
everybody has to go home and write a checkbook every month--the 
problem is this is the continuing cost of national defense, as 
Senator Akaka said earlier.
    Like it or not, this is just a bill that was left over from 
Vietnam from 35 years ago. We may have left there in 1975 in 
the last helicopters off the roof of the embassy, but that bill 
is still being paid every day by Vietnam Veterans, and we need 
to make sure that the VA has the resources to cover that bill 
not only on the health care side, but on the benefit side. In a 
weird perverse way, the Vietnam Veterans are affecting that 
too. The Vietnam Veterans are retiring from the VA in droves. 
They are reaching retirement age. They came to work for the VA 
and they are sitting there as adjudicators or senior 
adjudicators or appeals officers, and all of those people in 
the VA are going to march out the door over the next several 
years because they reached retirement age and they are not 
being backfilled with newer veterans. We hope they do. We need 
to do a lot more of that, and they are not prepared for that 
either.
    So all of those cases, while we understand fiscal 
realities, as we said, this is a cost. We didn't ask for it. It 
is a cost that has to be bourne by this country because they 
sent us off to war and just as they are sending the new 
veterans off to war, and while I focused mainly on the Vietnam 
Veterans issues, I would not relieve our colleagues who are 
following us in any way either. We still don't know what is 
going on with the Persian Gulf War Veterans. They still have 
all these unknown ailments. We are starting to find out more 
science about what happened to them. We don't know what the 
health effects are of the Marines who stood next to those 
burning oil wells for month after month. We don't know what is 
happening to the new veterans.
    We see from our service representatives, which I have been 
one for the last several years, people coming into our system 
that we see who have been injured. The most visible ones are 
sitting in Walter Reed in Bethesda, but there are thousands 
more that get hurt from not just IADs, but from accidents, 
vehicle mishaps, helicopter crashes, all kinds of things, and 
many of them are being taken off the field for disease, but we 
have no idea what that is about. So we are looking to see all 
of those things, and unfortunately it is going to cost money, 
and money is the issue. I am sorry. They are just going to have 
to bear the burden.
    Thank you for your listening to us and listening to my 
colleagues. Thank you.
    [The prepared statement of Mr. Rowan follows:]
Prepared Statement of John Rowan, National President, Vietnam Veterans 
                               of America
    Good morning Chairman Craig, Senator Akaka, and other distinguished 
Members of this Committee. It is my privilege this morning to present 
to you the thoughts and views of Vietnam Veterans of America 'VVA) on 
the funding priorities and issues of significance for veterans and our 
families.
    It has been said many times, only half-jokingly, that Americans 
have the shortest attention span of all mammals. What makes headlines 
today most of us forget about 6 months from now. Remember Chandra Levy?
    Veterans, though, have long memories. We remember why we served, 
what we saw, what we did when we donned the uniform to serve our 
country. We remember our comrades, those who died and most of the rest 
who were forever changed by having donned the uniform.
    We also remember last July, when Congress and the Administration 
were embarrassed by the revelation that the Department of Veterans 
Affairs was $800 million in the hole in meeting its health care 
obligations. After a flurry of meetings and a spate of publicity, 
Congress moved quickly, if belatedly, to do the right thing for 
veterans, even as this shortfall grew by several hundred million 
dollars as the VA suddenly ``discovered'' it was treating 103,000 OEF 
and OIF veterans rather than 26,000. Some 144,000 of our newest 
veterans are now being treated at VA facilities.
    To your credit, and for this we thank you, you closed this budget 
gap by adding $1.5 billion to the VA's FY 2005 operating budget. And 
you added another $1.2 billion in ``emergency funds'' for the current 
fiscal year which, we fear will still not be enough for the VA to 
maintain its current level of care, even with a reported $1.1 billion 
carryover in the VA's budget. You cited, correctly, some of the 
problems inherent in how the VA predicts the usage and attendant costs 
of its health care operations. While we are hardly omniscient, VVA's 
budget projections and those of the Independent Budget were right on 
the money, again.
                             fy 2007 budget
    This year, we believe the Administration's budget request, despite 
the hype, is short by at least $4.2 billion, $1.9 billion of which 
would open enrollment to Priority 8 veterans who were ``temporarily'' 
restricted from enrolling in the VA's health care system in January 
2003. If the ban on statutorily eligible Priority 8s continues, VVA 
believes the budget for health care is still short by some $2.3 
billion.
    The real effect of this shortfall is felt in the VISNs, in the VA 
medical centers, where the real work--patient care--is done. Next time 
you are back home, next time you visit one of the VA medical centers in 
your state, ask around how they're doing with the current budget 
constraints. We think you'll be surprised by what you learn.
    VVA believes that the budget for veterans' health care should not 
be capped by the need to control the deficit--a need that is 
exacerbated by tax cuts that benefit the wealthiest among us--but by 
the needs of the eligible veterans who choose to utilize the VA for 
their health care.
    We've said this before and we'll say this again: Had the VA's 
health care budget not been flat-lined for 4 years just as eligibility 
reform was opening the system to hundreds of thousands of deserving 
veterans, we would be discussing a budget $8- to $10-billion greater 
than it has been, than what is proposed for FY 2007.
    This year, yet again, we dispute the numbers in the 
Administration's budget request. It is not enough money, even to 
properly take care of those already in the system. Along with the other 
veterans' service organizations, VVA will expend countless hours and 
considerable energy arguing about and fighting for funding that is 
sufficient to meet the needs of the veterans the VA serves.
    This is one battle we should not have to wage. Instead, we should 
be working together to fashion a formula for funding the VA's health 
care operations. We challenge Congress here and now: Form a bipartisan 
group to meet, study the issues and options, hold hearings, and 
recommend legislation that would fundamentally change the way in which 
veterans health care is funded to ensure adequate funding for veterans' 
health care.
    VVA believes, in concert with other eight VSOs that comprise The 
Partnership for Veterans Health Care Budget Reform, that a fair funding 
formula can be arrived at, one that won't bust the budget, one that 
recognizes our nation's obligations to veterans and is indexed to 
medical inflation and the per capita use of the VA health care system.
                          adjudication backlog
    What sometimes gets lost in the debate over sufficient funding for 
veterans' health care is the continuing backlog in the adjudication of 
claims at the Veterans Benefits Administration. More than 525,000 cases 
have been in various stages of adjudication for far too long now. The 
VA projects this situation will get worse, yet only requests funding 
for 130 new employees for all of the VBA for fiscal year 2007. Congress 
needs to ensure that the new platoon of adjudicators is properly 
trained, supervised, and, along with their supervisors and managers, 
held accountable for their work.
    We believe that Congress must demand an explanation from the VA as 
to why it takes upwards of 2\1/2\ years to adjudicate cases. Congress 
must demand that the VA not only develop but put into practice a real 
strategy for unclogging the system. 'The VA might try to triage cases, 
akin to what military medical personnel do as casualties are brought in 
from the field of battle.) There's no reason why a veteran who has all 
of his paperwork in order in making a claim for, say, tinnitus must 
wait a year or more. There should be no reason why his claim can't be 
adjudicated in 60 to 90 days.
                         greater accountability
    We do not make the argument, however, that budget reform is an end 
in and of itself. It is, rather, a means to an end. It must be 
accomplished hand-in-hand with real changes in how VA senior managers 
and middle managers perform. Give ``attaboys'' and bonuses to those who 
have earned them; give warnings and sanctions to those who have not 
done their jobs well. Please do not get us wrong: The overwhelming 
number of those who work at the VA are dedicated to helping veterans, 
and we applaud the efforts they make every day. But better management--
and training--is needed if efficiencies are to be increased.
                           expanded outreach
    According to the U.S. Bureau of the Census, there are more than 25 
million veterans in the United States today. Only around one-fifth of 
them have any real interaction with the Department of Veterans Affairs. 
However, many of them, particularly in-country Vietnam veterans, are 
eligible for compensation for several maladies incurred during their 
military service--and far too many remain unaware of the benefits to 
which their service entitles them.
    These are not just veterans who have been having difficulties 
coping with life. As an example, in speaking with one Navy veteran, we 
learned that he had served in-country in Vietnam. When he mentioned 
that he had suffered with prostate cancer, we asked if he knew that 
this was service-connected compensable, presumptive to exposure to 
Agent Orange. This was news to him. And he is a lawyer with the IRS 
here in Washington, D.C.
    VVA believes that the VA has an obligation to reach out to all 
veterans to ensure to the maximum extent possible that they know what 
benefits they have earned, and they know how to access these benefits. 
This is starting to happen as VA personnel are assigned to the bases 
where active-duty personnel transition to civilian life and veteran 
status. This, however, is hardly enough.
    We commend to you legislation--S. 1342--introduced by Mr. Feingold 
that would require the Secretary of Veterans Affairs to establish a 
separate account for the funding of the outreach activities of his 
department--and a sub-account for the funding of the outreach 
activities of each element within the department. This legislation 
would assist states in carrying out programs that offer a high 
probability of improving outreach and assistance to veterans--and to 
their spouses, children, and parents who may be eligible to receive 
veterans' benefits. We urge Members of this Committee to seriously 
consider holding hearings on this bill.
    This morning, rather than offer a laundry list of issues and 
priorities, VVA is focusing on specific issues that demand our best 
efforts to achieve and warrant your attention and support.
                         fee-basis health care
    Approximately 60 percent of OEF/OIF service members, particularly 
in the National Guard and the Reserves, come from rural areas. Despite 
the VA's network of clinics, too many of these returnees and other 
veterans do not live near a VA clinic or medical center. They are at a 
distinct disadvantage in accessing VA health care. When the VA cannot 
provide the highest quality care, within a reasonable distance or 
travel time from a veteran's home, the VA has a duty to provide care 
via a fee-basis provider of choice for service-disabled veterans. VA 
personnel who deal with these veterans must be aware of their duty in 
this regard.
    This most assuredly does not mean that the VA should begin to 
dismantle its network of healthcare facilities and outsource, or 
privatize, VA services, as some might encourage. It does mean that 
Congress must ensure that every effort is made so that veterans--
particularly our newest veterans--receive timely care from providers.
                            military history
    The Veterans Health Administration 'VHA) must become a true 
``veterans health care system'' instead of a general health care system 
that happens to be for veterans. Without taking a complete military 
history of its patients, this is just not possible. We cannot state 
emphatically enough the need for VA clinicians to take a complete 
military history as a matter of course for all veterans currently in or 
entering the VA health care system. This must be part of the automated 
patient treatment record, so that it can be keyed to training, be the 
basis of clinical reminders based on the veterans' military record, and 
focus the general mindset of all clinicians at VA toward being a true 
``veterans health care system.''
    What is true for VA clinicians is true as well for private 
clinicians. A medical professional who knows a patient is a veteran, 
and knows a patient's military history, should have a better idea about 
what that patient may have been exposed to, what emotional trauma were 
faced that will have ongoing physical and/or mental repercussions.
                         military sexual trauma
    It has become clear in the last decade that sexual harassment and 
sexual abuse are far more rampant than what had been acknowledged by 
the military. Reported instances of sexual harassment and abuse 
represent only the tip of the proverbial iceberg. While we are 
gladdened that both the Departments of Defense and Veterans Affairs 
seem now to be taking this seriously, even acknowledging sexual trauma 
as a crime in the Defense Authorization Act of 2005, there is still a 
long road to travel to change the current atmosphere that conditions 
victims of sexual abuse to not report this abuse to authorities. We 
urge Congress to call for a review of the penalties for military sexual 
trauma under the Uniform Code of Military Justice to determine if the 
penalties are commensurate with the offenses, and to act to ensure 
uniform enforcement in all branches of the military.
    VVA also shall seek, via legislation or regulation, to re-authorize 
the biennial report of the Advisory Committee on Women Veterans, to be 
submitted to the Secretary of Veterans Affairs for response and then to 
Members of Congress; and we shall seek as well legislation to provide 
contract care, for up to 14 days post-delivery, for infants born to 
women veterans who receive delivery benefits through the VA.
                              va research
    Perhaps the coalition of Friends of VA Medical Care and Health 
Research endorsing a $48 million increase in appropriations for medical 
and prosthetics research--and $45 million for facilities improvements--
did not reach the right ears yet. It should be clear to all, however, 
that the $13 million ``hit'' the VA research budget will take if the 
Administration's proposal is approved is unconscionable, particularly 
in a time of war. Research may not reap immediate benefits, but 
research is critical in finding answers to the unique medical problems 
of veterans, and treatments that ease pain and save lives. The VA 
research program results in discoveries that advance the fields of 
mental and physical rehabilitation, increase research on blast injuries 
and burns, study means to improve the quality of health care delivery, 
and continue investigation on addressing chronic diseases and their 
complications.
    VVA urges a significant increase, not any decrease, in funding VA 
research. VVA also calls for a separate line item of $25 million in 
Research & Development funds to fund the National Vietnam Veterans 
Longitudinal Study 'NVVLS), with report language compelling the rapid 
resumption and early completion of this vital study. (ee further 
explication below.)
                              agent orange
    Far too many in-country Vietnam veterans are afflicted with 
serious, life-threatening diseases at a relatively young age, diseases 
that we believe are borne of exposure to Agent Orange and other 
herbicides, defoliants, and desiccants during their tour of duty in the 
jungles and rice paddies of Southeast Asia. Congress must provide the 
funds for study by reputable scientists into the long-term health 
effects of dioxin, the culprit element in Agent Orange. Some of this 
research must focus on the intergenerational effects of exposure on the 
children--and on future generations--of Vietnam veterans.
    Even though VVA agrees that funds should no longer be expended on 
the flawed Air Force Ranch Hand Study, we fully intend to work to 
ensure that the data gleaned from this study, as well as the tissue 
samples, are properly stored and accessible for legitimate scientific 
study.
                        lung cancer and veterans
    As the VA acknowledged in 1994, there is mounting evidence of a 
``positive association'' between exposure to herbicides--like Agent 
Orange--and the subsequent development of respiratory cancers. 
Additionally, a series of studies over the past 20 years has linked 
military service to higher smoking rates and smoking-related diseases 
and deaths. Because lung cancer is usually not diagnosed until late 
stage, making treatment costly and not very effective--the mortality 
rate for lung cancer is 85 percent--VVA urges Congress to mandate that 
the VA institute an early detection and screening program for all 
veterans--and especially Vietnam veterans--at high risk for this lethal 
cancer.
                            project 112/shad
    VVA has been and will continue to work diligently to ensure the 
passage of The Veterans' Right to Know Commission Act 'H.R. 4259). This 
legislation, introduced by Reps. Mike Thompson 'D-California) and Denny 
Rehberg 'R-Montana), would empower an independent commission to delve 
into the history and non-disclosure of information to American service 
members who participated in the testing of chemical and biological 
substances as part of the Project 112/SHAD program.
    This bill is about achieving justice for those Americans whose 
health may have been compromised by toxic elements to which they were 
exposed. Most were exposed unwittingly. The VA acknowledges that at 
least 70,000 service members may have been exposed in tests that go 
back to the end of World War II. Those still living, and the survivors 
of those no longer with us, should be provided with the information 
they need to resolve questions about their health, and to make claims 
for service-connected disabilities derived from their participation in 
these tests.
    Additionally, the legislation entitling a veteran who was in one of 
the Project 112/SHAD tests to medical services at the VA must be 
reauthorized and extended; and we extend our thanks to Senator 
Brownback for his leadership in this realm. VVA strongly recommends 
that the VA be required to issue a national protocol for these 
physicals based on the agents, simulants, tracers, and decontaminants 
to which 112/SHAD veterans were potentially exposed.
                        ptsd and substance abuse
    VVA believes that the National Vietnam Veterans Longitudinal Study 
'NVVLS), a follow-up to a study done some 20 years ago, must be 
funded--and the VA compelled to immediately re-initiate this 
statutorily mandated study and bring it to an early and proper 
conclusion. The NVVLS represents the last best chance we have of 
understanding the scope of the health of Vietnam veterans. Line-item 
funding for this study and strong explicit report language are needed 
to compel the VA to fulfill its responsibility to comply with the 
mandate set by Congress in Public Law 106-419, The Veterans' Benefits 
and Health Care Improvement Act of 2000.
    Just as important, Congress must take the necessary steps to ensure 
that the organizational capacity and funding of the VA's mental health 
programs for the diagnosis and treatment of the neuro-psychiatric 
wounds of war are restored to at least the level of effort that existed 
in FY 1996. So many veterans of the fighting in Afghanistan and Iraq 
are returning home haunted by their experiences. We do a disservice to 
them if we do not provide the necessary mental health services that 
they require.
    As all of us are aware, PTSD has been a hot topic of late. The 
108th Congress authorized and funded the Veterans' Disability Benefits 
Commission to research and make recommendations as to how service-
connected disability compensation is adjudicated, if the manner in 
which the VA adjudicates claims is in accord with the intent and will 
of Congress. The very existence of this commission, combined with the 
VA's ill-advised--and now revoked--decision to conduct a retrospective 
review of some 72,000 cases in which veterans were granted 100 percent 
disability compensation for PTSD, has left many veterans fearing that 
their benefits will somehow be reduced or taken away.
    The VA is obliged to use as a guidepost for the diagnosis of PTSD 
the mental health standards set forth in the current edition of the 
Diagnostic and Statistical Manual of the American Psychiatric 
Association. VVA believes strongly that if VA adjudicators are properly 
trained and supervised, if they follow the VA's own ``Best Practices'' 
manual, the hubbub surrounding the variation in awards for PTSD would 
be silenced. The VA specifically and firmly refuses to utilize its own 
``Best Practices'' for PTSD adjudication. Now, 4 years after the 
completion of the manual, and having refused to use it to train 
clinical or adjudication staff, or to issue a directive on its use--or 
to even distribute a copy of the manual--the VA is awaiting the results 
of a study by the Institute of Medicine to let VA officials know if how 
they adjudicate PTSD claims is the ``gold standard'' or if they need to 
do things differently. We have been monitoring this closely, and we 
will continue to monitor it to ensure that veterans whose lives have 
never been quite the same since they came home from a war--from a 
jungle or desert or rice paddy or metropolis--are protected from any 
undue or hasty changes in the rules.
            employment, training, and business opportunities
    VVA will continue to work to ensure that all provisions of 
executive orders, public laws, and legislation pertaining to the 
employment, training, and business opportunities for all veterans, and 
especially for service-disabled veterans, be enforced. State, local, 
and Federal agencies that work diligently to meet the spirit and intent 
of these provisions should be rewarded; any attempts to weaken the 
provisions should receive appropriate sanctions.
    For the Secretary of Labor to continue to implement the Jobs for 
Veterans Act as it has been is astonishing. A recent Government 
Accountability Office report is far too kind to the Department of 
Labor, which has made no progress in the past 3 years to put in place a 
system to gather information to learn if the Jobs for Veterans Act is 
actually working and meeting the intent of Congress. In fact, the DOL 
has done nothing of consequence to implement ``priority of service'' 
for veterans, particularly disabled veterans and returning service 
members.
    In fact, there is no real national strategy to assist returning 
veterans, including National Guard and Reservists, who are unemployed 
or under-employed--and some 15 percent of our newest veterans have yet 
to find gainful employment. Similarly, there is no effective mechanism 
in place for enforcing veterans' preference, and we have an 
Administration that appeals a case against a disabled veteran who had 
finally won his case before the Merit System Protection Board pursuant 
to The Veterans Employment Opportunities Act of 1998.
    It is imperative that re-education and work skills upgrades, 
including self-employment, be made a priority by those agencies of 
government that provide these services, especially considering the 
battalions of seriously and permanently disabled veterans returning 
from Afghanistan and Iraq.
    Additionally, VVA implores Congress to begin an investigation into 
the disparities of the Compensated Work Therapy programs in the 
Veterans Health Administration, which we believe is just not doing the 
job they were created to do, of creating a bridge to permanent 
employment.
                           homeless veterans
    It is a national scandal that so many men--and, increasingly, 
women--who have served our nation now do not have a roof over their 
head, a place to call home. Although there are many reasons that have 
caused them to become homeless, they deserve our best efforts to help 
them salvage their lives.
    Public Law 107-95, The Homeless Veterans Assistance Act of 2000, 
must be sufficiently funded and its provisions fully implemented--
including the maximum appropriations stipulated in a variety of 
homeless assistance programs. Furthermore, we believe that 
congressional action is necessary to readdress what has emerged as a 
difficulty: VA Homeless Grant and Per Diem funding must be considered a 
payment rather than a reimbursement for expenses, an important change 
that will enable the community-based organizations that deliver the 
majority of these services to operate effectively and to require that 
the Department of Housing and Urban Development comply with section 12 
of P.L. 107-95 authorizing 500, additional HUD/VASH vouchers in fiscal 
year 2003, fiscal year 2004, fiscal year 2005 and fiscal year 2006. HUD 
acknowledges in a letter of December 5, that these funds have not been 
appropriated and that housing needs of homeless American is one of the 
top priorities, of the department, if this is so, then why are they 
leaving about 2,000 homeless veterans' without the most vial resources 
they need a safe and secure place to live by not asking Congress to 
appropriate these vouchers.
                        compensation and pension
    To promote uniform claims decisions, current policy must be changed 
to permit VA staff and VSO service representatives to collaborate in 
developing uniform training materials, programs, and competency-based 
re-certification exams.
    VVA also seeks to secure a pension for Gold Star parents, many of 
whom are in dire financial straits and have lost the son or daughter 
who might have been able to assist them in their old age.
    For currently deployed or soon-to-be deployed troops, VVA believes 
that greater financial protections are warranted for their security and 
the security of their loved ones. For the survivors of those who die in 
military service, we seek a permanent prohibition of offsets of 
Survivor's Benefit Plan and Dependency & Indemnity Compensation.
    Finally, a change in the law is necessary to permit service members 
wounded in combat and placed on temporary disability status to be 
considered as remaining on active duty for the purpose of computing 
leave and retirement benefits.
                      a new generation of veterans
    The force readiness plan being developed by the Pentagon at the 
behest of Congress must include a full medical examination, to include 
a blood draw and a psychosocial history by a qualified clinician, for 
all troops prior to their deployment overseas and upon their 
redeployment.
    Because our newest veterans appear to be suffering the 
psychological stresses and disorders in far greater numbers than even 
we of the Vietnam generation, it is imperative that a system of acute 
stress counseling and PTSD counseling be emplaced, a system funded by 
DoD and delivered by VA personnel and private practitioners. This 
counseling must be made available to Reservists and members of the 
National Guard and their families in addition to active-duty troops.
                                pow/mia
    The fullest possible accounting of the fate of American service 
members who had been Prisoners of War or who had been declared Missing 
in Action has long been a keynote of Vietnam Veterans of America. To 
further VVA's long-standing efforts in this regard, we urge Congress to 
appropriate additional funds to put more teams on the ground to conduct 
searches for remains in Vietnam, Laos, and Cambodia.
    VVA also urges that all documents relevant to the status of POW/
MIAs be declassified and released to the public; and we ask Congress to 
pass a resolution urging the government of Vietnam to provide all 
relevant wartime records and to continue to repatriate the remains of 
American service members that have been recovered.
    Finally, we seek funding for a public awareness program to inform 
all the families of those still listed as POW/MIA of the need to 
provide DNA family reference samples for potential identification of 
recovered remains.
    To lose a son or daughter, father or sister or mother or brother is 
difficult enough for families to deal with. To not know the fate of 
their loved ones places these families in emotional limbo. We must do 
all that we can to bring closure to them. And to all of us.
    Attach please find as an addendum the VVA 2006 Legislative Agenda & 
Policy Initiatives brochure.\1\
---------------------------------------------------------------------------
    \1\ The VVA 2006 Legislative Agenda & Policy Initiatives brochure 
can be found in the Appendix section on page 43.
---------------------------------------------------------------------------
    Thank You.
    To conclude, the members and their families of Vietnam Veterans of 
America, and the Associates of Vietnam Veterans of America, thank all 
of you in Congress who have served our nation, and those of you who 
continue to serve veterans and their families as Members of this 
Committee. I will be more happy to answer any question you may have.

    Chairman Craig. John, thank you very much for that 
testimony for the record.
    Now let me turn to Ed Kemp, National Commander, AMVETS.
    Welcome before the Committee.

    STATEMENT OF EDWARD W. KEMP, NATIONAL COMMANDER, AMVETS

    Mr. Kemp. Thank you, sir.
    Mr. Chairman, Members of the Committee, this distinguished 
Committee has a fine tradition of working in a bipartisan 
manner and is a real example of how members of opposing parties 
and opposing views can work together to reach a common goal. I 
thank you for your support of veterans.
    We are here today to speak about issues that are near and 
dear to us, but most importantly, we are here to let the Senate 
know that we mean business when we say veterans deserve the 
benefits they were promised when they put on the uniform. 
AMVETS is concerned about future veterans' benefits, so we are 
doing something about this.
    This October, AMVETS is holding a national symposium for 
needs of young veterans in Chicago. The symposium's goal is to 
draw attention to the challenges of modernizing VA benefits 
specifically for younger veterans.
    Just before Veterans Day this November, we will publish an 
action plan that will define and prioritize the steps needed to 
bring VA into the 21st century. We ask for your support in this 
endeavor. The need for this forum could not be more timely, 
given that we have a new generation of brave Americans deployed 
around the world. VA has seen more and more younger veterans, a 
lot of them from OEF and OIF.
    I just got back from a trip to Iraq. When I talked to the 
troops, not one single soldier had a negative thing to say 
about their mission. Our soldiers are there to do a job and are 
confident that they will win and restore order, but they need 
assurance that VA is there for them. No serviceman in harm's 
way should ever question the Nation's commitment to veterans, 
but as things now stand, veterans are continuing to suffer 
because the system they depend on has been routinely 
underfunded.
    Members of the Senate, you are provided with a benefit that 
you earned representing the people. I would imagine that you 
would never vote for any bill that would underfund those 
benefits. We ask that you do the same for veterans.
    VA budget for fiscal year 2007 still falls short, and like 
most years, funding may be late or delayed. We feel the best 
way to ensure stable and dependable funding of VA is to make it 
mandatory. That way, there is never a question of how much or 
when funds will be in place. Our Nation's veterans deserve 
nothing less.
    Mr. Chairman, you said you would want to begin a serious 
dialogue on how to best develop sustainable and long-term VA 
budgets. We are here to help you attain that mission. We 
appreciate your leadership and look forward to working with you 
on this.
    Another issue that needs our immediate attention is the 
growing backlog of claims. Many claims processors are retiring 
and being replaced with less experienced ones. This type of job 
requires months of training and years of experience to fully 
understand the system. VBA needs to hire and train additional 
full-time employees, not cut them, but you can only do so if 
the Senate does its part. We need your help in getting the 
funds.
    AMVETS supports legislation that awards a military service 
medal to Cold War veterans. We were disappointed that the 
service metal was not passed last year. We encourage you to 
pass it this year.
    AMVETS will not waiver on its efforts to protect the flag 
from being dishonored. We believe our children and 
grandchildren should be raised patriots full of respect for the 
flag and the constitutional values it represents. Senate 
Majority Leader Frisk promised us that the flag amendment would 
come before the Senate in June. We urge you to stand up and 
support our veterans on this important bill.
    AMVETS also wants the fullest possible accounting of our 
missing service personnel. We ask for your support in funding 
and identifying the remains.
    One last point concerns the Joint Session Committee on 
Veterans' Affairs. AMVETS feels that the tradition of the Joint 
Session should continue. We encourage you to talk to your 
counterpart in the House and ask him to re-instate the Joint 
Session.
    I would like to invite everyone here to attend our 
reception tonight at 5:30 in room 369 in the Rayburn House 
Office Building.
    This concludes my testimony, and I thank you for allowing 
me to testify and for your support of veterans.
    [The prepared statement of Mr. Kemp follows:]
    Prepared Statement of Edward W. Kemp, National Commander, AMVETS
    Chairman Craig, Ranking Member Akaka and Members of the Senate 
Veterans' Affairs Committee. I am Edward W. Kemp, national commander of 
AMVETS, and it is my honor to present to you our legislative agenda for 
2006. On behalf of AMVETS, the AMVETS Ladies Auxiliary, the Sons of 
AMVETS and our other subsidiary organizations, thank you for giving us 
this opportunity.
    I am from the great state of Iowa and proudly joined AMVETS in 
1982. For more than 60 years, this organization has taken to heart the 
doctrine of service set forth by its founders. In so doing, we endeavor 
to provide our fellow veterans with the type of support they truly 
deserve. This outreach effort takes many forms, from the professional 
advice of our service officers, to our legislative efforts on Capitol 
Hill, to the work done by our hospital volunteers. Other AMVETS members 
involve themselves in a wide range of initiatives aimed at contributing 
to the quality of life in their local communities. These two areas--
veterans service and community service--drive our commitment to make a 
difference in the lives of others.
    Before presenting our agenda for this year, I'd like to speak for a 
moment about an ambitious project we are working on, and kindly ask for 
your support. AMVETS is hosting a National Symposium For the Needs of 
Young Veterans this October in Chicago, Illinois. The Symposium--the 
first of its kind--is designed to draw attention to the critical 
challenge of modernizing the VA benefits system. We will bring together 
a diverse array of veterans and speakers to examine what changes are 
needed to make the system more responsive to veterans. The Symposium 
will publish an action plan that will define, describe and prioritize 
the steps needed to provide a modern benefits program and an effective 
delivery system. I am very pleased that General Tommy Franks has agreed 
to keynote the Symposium. Given his distinguished career of military 
service and recent experiences in Iraq and Afghanistan, General Franks 
is ideally suited to talk about the need to ensure our nation keeps its 
promise to those who serve.
    We are well underway, but I ask for your help in making the 
Symposium a successful endeavor. I'd also like to thank our co-chairs, 
former VA Secretary Anthony Principi and AMVETS Past National Commander 
Bill Boettcher for keeping our agenda on a straight and true course.
    Mr. Chairman, the timing of this important forum could not be more 
relevant, given that we have a new generation of brave Americans once 
again deployed around the world, answering the nation's call to arms. 
Our soldiers are doing everything right, everything that we ask of them 
and much more. Our country fights, not for land or fortune, but for 
freedom. In past conflicts, America has fought to secure liberty, 
abolish slavery, and crush communism. Our cause today is equally just. 
We are fighting to conquer those evil forces who would rule by fear 
and, in the process, are helping to spread freedom and democracy around 
the world.
    In mid-February, I had the unique opportunity to go to Iraq with my 
colleagues in the veterans community. It is an experience I will never 
forget. I met and talked with U.S. and British generals, Iraqi officers 
and dozens of front-line soldiers. The most amazing part of my trip was 
not one soldier had a negative thing to say about being there. Despite 
all we hear and read in the news, our soldiers are there to do a job, 
and are confident they will win and restore order. I am extremely proud 
of them. Without a doubt they are the most dedicated, courageous and 
passionate troops in the world, and I want each of them to know that I 
appreciate all they do to protect the freedoms I enjoy as an American. 
God bless them all.
    Almost half of the military servicemen and women returning from 
operations overseas will need healthcare services for the physical and 
psychological traumas of war that may never heal. Seventeen percent of 
them, in fact, have been diagnosed with post-traumatic stress disorder. 
I encourage you to go and visit these injured soldiers. Talk with them 
and listen to what they have to say. You will leave with a renewed 
perspective of your obligations to veterans.
    We are spending $6.8 billion a month for operations in Afghanistan 
and Iraq, yet trying to nickel and dime veterans' health care here at 
home. This year alone, the President is expected to request an 
additional $92.2 billion for the war. We certainly support additional 
monies to support our troops, but I can't understand why there is never 
enough to fully fund VA. If Congress can find nearly a hundred billion 
more for these operations, I believe it should be able to come up with 
enough money to totally care for those charged with carrying them out.
    As things now stand, our veterans are continuing to suffer because 
the system they depend on has been routinely underfunded and is now ill 
equipped to handle the large influx of those waiting and wanting to use 
its services. I ask you to take a look at what the real needs are. 
These are real people with real needs. They should not be subject to 
political accounting games or petty disputes.
    As Members of the United States Senate, you are provided with 
certain benefits--paid for at taxpayer expense--that you earn as 
representatives of the people. I would imagine that you would never 
vote for any proposal or initiative that would underfund or undermine 
the integrity of that delivery system. We ask that you do the same for 
veterans.
    For 20 years, AMVETS--together with the Disabled American Veterans, 
the Paralyzed Veterans of America, and the Veterans of Foreign Wars--
have co-authored The Independent Budget, our blueprint for building the 
kind of programs veterans deserve. Indeed, we are proud that more than 
60 veteran, military and medical service organizations endorse these 
recommendations. We believe it is a balanced and responsible analysis 
of VA's funding requirements. In years past, however, budget requests 
fell woefully short of our recommendations, and we all know about last 
year's funding shortfall. If that crisis didn't do anything else, at 
least it validated The Independent Budget recommendations. The IB was 
right on target, and I ask that you follow our recommendations this 
fiscal year. We were right then, and we are right now.
    Looking at the administration's VA request for fiscal year 2007, I 
must say it is much better than last year's pitiful recommended 
increase of $110 million. This year, thanks in large measure to the 
leadership and commitment of this Committee, VA fared better. The 
request, however, still falls short.
    We recommend Congress provide $32.4 billion to fund VA medical 
care, approximately $1 billion over the President's request, without 
collections. We ask that you recognize that the VA healthcare system 
can only provide quality health care if it receives adequate and timely 
funding.
    As the Senate moves forward in the budget process, we ask that you 
not divert precious monies already scheduled for VA medical centers, 
construction projects and other purposes. We understand the total 
devastation in Louisiana and Mississippi, and we fully support the 
rebuilding and reconstruction efforts there. But we do not support re-
routing funds that have already been approved for VA projects. This 
policy is taking a step backwards. Fund the emergency with emergency 
funds, not VA monies.
    As you understand, Mr. Chairman, it is very difficult to manage 
programs as complex as those within VA based solely on current fiscal-
year appropriations. It is our hope that we can work with you and the 
Committee to create a process that brings increased consistency to VA's 
budgetary requirements by recognizing the need for a more efficient 
fiscal plan. Frankly, the current system of funding veterans' health 
care is broken. It doesn't work. AMVETS will continue to pursue 
legislation with eight VSO partners for assured, or mandatory, funding 
of VA's healthcare system.
    Under the current process, VA health care competes with other non-
veterans priorities for adequate appropriations. Over the years, this 
process has proven to be unsatisfactory in adequately providing for the 
needs of enrolled veterans. Shifting to a mandatory funding system will 
provide a stable and timely system of funding for VA. Mr. Chairman, we 
understand your position on this issue, but we ask that you begin a 
serious dialogue to explore alternative ways to fund VA. Compromise is 
the cornerstone of this democracy, and we are certainly willing to work 
with you to find a way to make VA funding more stable.
    While assured funding remains our core legislative goal and 
objective, there are several other areas we believe the Committee needs 
to address this year. Let me briefly discuss them.
    AMVETS believes increasing TRICARE premiums and deductibles will 
have a negative impact on military retirees. While we understand that 
health care costs are on the rise, DoD health care programs are part of 
the on-going cost of war. Our Nation's military retirees have given so 
much to this country. They deserve fair treatment.
    No veteran leaving military service should fall through the 
bureaucratic cracks. AMVETS believes DoD and VA have no greater 
responsibility than to properly care for returning soldiers and provide 
as many tools as possible to assist them in settling back into civilian 
life. For some war wounded and their families, navigating between these 
systems is pure frustration. In order to provide a seamless transition, 
AMVETS recommends that veterans' basic service information, as 
contained in the DD-214, be made available electronically--and we ask 
that you explore ways to make this possible.
    I do not think we realize how fortunate we are as a nation to have 
a highly skilled veteran population able to lend its talents to the 
workforce. Veterans have the skills that make them assets in a variety 
of occupations. Leadership, integrity, and teamwork--all of which the 
military teaches--are universal qualities for every industry.
    While the Senate has done a good job in reauthorizing training, 
education and job programs, I encourage you to take a look at the 
Transition Assistance Program 'TAP) and other related programs to 
ensure all our returning troops get the assistance they need. DoD 
discharges approximately 25,000 service members annually. Recently 
separated service personnel are likely to seek immediate employment or 
continue their formal vocational education. But they need to know all 
that's available to them.
    The Department of Defense estimates that 68 percent of separating 
service members attend the full TAP seminars, but only 35 percent of 
the Reserve Components attend. Countless numbers of National Guard and 
Reserve troops return from the war only to encounter difficulties with 
their Federal and civilian employers at home. AMVETS encourages you to 
explore ways to make TAP participation mandatory for active duty 
military as well as for those in the Guard and Reserves.
    While speaking about returning troops, we ask that you continue to 
adequately fund the Department of Labor's Disabled Veterans' Outreach 
Program 'DVOP) and the Local Veterans' Employment Representatives 
'LVER) Program. Through the implementation of these programs, DOL-VETS 
assists, not only veterans, but also helps reservists and Guard members 
in securing employment and protecting their re-employment rights and 
benefits.
    Furthermore, AMVETS asks you to closely monitor legislative 
attempts to consolidate and block grant the DVOP and LVER programs. We 
firmly believe that this type of veteran-oriented program should remain 
separate and distinct to ensure that these brave men and women are 
given the assistance their country owes them for their military 
service. It would be a grave error to downgrade employment services 
that specifically help troops returning to the country they fought to 
defend.
    For decades, DVOPs and LVERs have been the foundation of employment 
services for veterans. We believe it is important that states continue 
to be required to hire veterans for these positions. One example of 
just how important it is for veterans to advocate for veterans exists 
within our own organization.
    The AMVETS Department of Ohio developed and fully operates a 
501'c)'3) career center designed to assist veterans in their career 
needs. The AMVETS Career Center provides a range of services to help 
veterans find employment in a substantial career, or assists them in 
refreshing and/or upgrading their skills. The Center, for instance, can 
help a veteran learn more about computers, business math, business 
grammar, business management, word processing or database management. 
It provides these services to veterans who are homeless, unemployed or 
underemployed; to those who want to prepare for a new career or better 
job; and to recently separated veterans making the transition to the 
civilian workforce. The center also provides services to non-veterans 
from the community for a small fee of $50.00. There is no cost to the 
veteran.
    Regarding claims, AMVETS is very concerned about the growing 
backlog that leaves many veterans without due compensation. Veterans 
Benefits Administration 'VBA) budgets have routinely come up short and 
can't stretch to cover the needs. Many claims processors are retiring 
and being replaced by those less experienced who require years of 
training. This is no ordinary job. It requires months of training and 
years of experience to fully understand and navigate the system. If VBA 
is going to reduce the claims backlog to zero, VBA needs to hire and 
train additional fulltime employees. But it can only do this if the 
Senate does its part. We need your help to get the funds.
    AMVETS supports legislation that would award a military service 
medal to members of the Armed Forces who served honorably during the 
Cold War Era. We are disappointed that the Cold War Service Medal did 
not survive the House-Senate conference on the fiscal year 2006 
National Defense Authorization Act. Presidents going back to Truman 
have recognized the significance of the Cold War. By creating the Cold 
War Victory Medal, this nation would certainly demonstrate its great 
respect and appreciation for the men and women who carried the burden 
of this policy.
    For veterans, though, one issue transcends all others. It involves 
the desecration of the United States flag. AMVETS will not waiver in 
its efforts to protect the flag from being dishonored. As a member of 
the Citizens Flag Alliance, we continue to strongly support a 
constitutional amendment to protect our most sacred symbol. But the 
flag is much more than a piece of cloth that drapes the coffins of 
those who died so others might live; that covers the bodies of first-
responders who gave their lives in the line of duty; and that flies at 
half mast in recognition of honorable Americans. Indeed, the flag 
stands for all that is good about our country and the values on which 
it was founded.
    All 50 state legislatures have passed resolutions asking Congress 
to submit the flag amendment for ratification. More than 80 percent of 
the American people support such an amendment. If someone desecrated 
the Halls of Congress, the Lincoln Memorial, or any other of our 
national monuments, lawful action would be taken against the offenders. 
We ask nothing less for our flag. We now ask you, our Senators, to 
stand up and be counted and bring the flag protection bill to the 
Senate floor as soon as possible.
    Additionally, as the Committee is aware, there is a growing need 
for long-term care in VA. Veterans 85 years and older, who are in most 
need of these services, are expected to total 1.3 million over the next 
decade. With the sharp increase in the projected number of elderly 
veterans, AMVETS believes that VA's extended care services are 
indispensable to its overall mission in providing veteran health care.
    We urge you to explore the challenge ahead for providing long-term 
assistance to veterans. And we seek action that will provide enrolled 
veterans with affordable access to a continuum of extended care 
services that include nursing home care and domiciliary care, as well 
as home and community-based extended care services. This way we can 
assure improved healthcare delivery and enhance the measure of care for 
elderly veteran patients.
    I would be remiss if I did not mention and acknowledge the fine 
work VA nurses provide to wounded veterans. VA nurses care for more 
than 5 million American veterans nationwide. The Veterans Healthy 
Administration 'VHA) has the largest nursing workforce in the country 
with nearly 59,000 registered nurses, licensed practical nurses, and 
other nursing personnel. But VA staffing levels are so precarious that 
even the loss of a single nurse can result in a critical staffing 
shortage. Veterans are much more comfortable receiving treatment from 
nurses who understand their service; who speak the same language; and 
who know what they went through. AMVETS encourages this Committee and 
VA to actively address the factors known to affect recruitment and 
retention of VA nurses.
    We also want the fullest possible accounting of our missing service 
personnel and ask for your support in finding and identifying their 
remains. This is important. It is a duty we owe the families of those 
still missing--and an endeavor that honors the value of an American's 
service to the nation.
    AMVETS understands many Gulf War and younger veterans are reporting 
illnesses stemming from weapons containing depleted uranium 'DU). This 
material can remain in the human body for decades, if not life, causing 
cancers and other unknown illnesses. AMVETS encourages Congress to pass 
H.R. 4183 and H.R. 4184, which would locate, assist, and compensate 
veterans affected by exposure to DU, and help them file a claim.
    Lastly, just as we care for veterans when they are alive, we must 
not forget them when they die. We need to ensure that our national 
cemeteries remain dignified and respectful settings for honoring 
deceased veterans. We are encouraged that the administration earmarked 
$28 million for the National Shrine Commitment, and we are thankful for 
the recommended increases above that figure. The National Cemetery 
Administration 'NCA) has done a tremendous job of improving the 
character and condition of our nation's cemeteries, but we have a long 
way to go to get us where we need to be. AMVETS also feels it is time 
to review a series of burial benefits that seriously eroded in value 
over time. With a few modest adjustments, these benefits will make a 
more meaningful contribution to the burial costs for our veterans.
    Our commitment to make a difference in the lives of others, though, 
doesn't stop there. Since its inception in the 1950s, for example, the 
AMVETS National Scholarship Program has awarded more than $2 million in 
scholarships to graduating high school students. And for the past 17 
years, AMVETS has sponsored a youth leadership program in cooperation 
with Freedoms Foundation at Valley Forge, Pennsylvania, that has served 
more than 700 youth to date. At VA, AMVETS is proud to serve on the 
National Advisory Committee of Veterans Affairs Voluntary Service 
Program. Last year, more than 3,000 AMVETS, Ladies Auxiliary and Sons 
volunteers tallied over 200,000 hours of voluntary service at 146 VA 
Medical Centers. In addition, some 10,000 AMVETS from across the 
country invested more than 700,000 hours in helping veterans and 
providing an array of community services to enhance the quality of life 
for our nation's citizens. I am pleased to report that based on The 
Independent Sector statistics, AMVETS provided in excess of $23 million 
in voluntary service to the local community.
    One last point I'll mention, Mr. Chairman, concerns the Joint 
Session of the Committees on Veterans' Affairs. First, we thank you for 
extending us the opportunity to appear before you today and we thank 
the Members of the House who are present here. We feel, however, that 
the long-standing tradition of the Joint Session should continue. We 
believe it is a more efficient and valuable way of presenting our 
agenda to Congress. A Joint Session provides you the opportunity to 
address the many constituents who are present from your respective 
States, and it provides AMVETS members with the opportunity to see 
their elected officials respond to issues important to them. We 
encourage you to talk with your counterpart in the House and ask him to 
reconsider his decision. Great decisions and challenges await us in the 
months ahead. The membership of AMVETS looks forward to working with 
you to establish a clear policy of national recognition for those who 
serve. We have much to do, but we are encouraged in knowing that our 
work will help the heroes who have borne the battle and lived to tell 
about it.
    This concludes my testimony. Again, thank you for extending me the 
opportunity to appear before you today, and thank you for your support 
of veterans. I hope all of you will be able to join us tonight for our 
annual congressional reception and Silver Helmet presentation to The 
Honorable Bob Filner of California, to be held in room B-369 of the 
Rayburn House Office Building from 5:30 to 7:00 p.m.
    Thank you.

    Chairman Craig. Ed, thank you very much for that testimony.
    I am going to ask a series of questions. I may direct it at 
any one of you, but if others feel they can add to it or have 
something to say specific to that question, please do so. Many 
of you have expressed your concerns about VA claim processing, 
and I think we all have that concern about its timeliness and 
its responsiveness.
    George, you mentioned in your testimony that State 
Veterans' Affairs Departments can give help in VA claims 
processing. Could you please explain what types of help could 
be forthcoming and what efforts might be provided at the level 
that you are responsible for?
    Mr. Basher. Yes, sir. When the claim is processed, 
initially most claims are filed, and if you look at the 
Inspector General's report that came out last summer, claims 
that veterans file that are not represented by any service 
organization, State organization, or county organization, the 
average annual award totaled something around $3,200 a year. 
Any representation for a veteran filing a claim resulted in an 
annual award of $10,500 a year. So there is a terrific spread 
in the level of benefits received whether or not you are 
represented.
    The front end of the claim process, essentially the 
outreach, the development of the claim, the gathering of the 
story, and the evidentiary documents is all part and parcel of 
what State organizations, service organizations, and county 
service officers provide. Submitting that claim package in an 
organized logical manner to the VA and then letting them make 
the determination of service connection and a subsequent award 
seems to me to be a logical division of work, but under the 
current regulations and current process, essentially VA picks 
up that pile of paper that we have submitted, starts all over 
again gathering the same evidence, developing the same story, 
and then coming to the same conclusion again, which is to my 
mind a very inefficient process.
    There are 4,000 people working in State and local 
government who are accredited to do benefits claims or support 
people who are accredited. VBA has got about 8,500 people 
processing benefit claims nationwide. So it seems to me to be 
sensible to leverage those State and local government employees 
with the Federal employees to make it a seamless process that 
expedites the whole deal instead of some places doing the work 
twice.
    Yes, John.
    Mr. Rowan. Yes, Mr. Chairman. One of the other problems, 
quite frankly, is the antiquated structure that the VA 
processing is. It is still all paper, pen and paper. It's 
amazing the counterbalance between the VBA and the VHA. Here 
you have got on the health care side this wonderful computer 
system where I can walk into any VA hospital in the country and 
they can punch up my records and tell me exactly what my health 
care looks like, whereas the VBA can't do anything like that.
    I went through a training for virtual reality of VA, a 
Virtual VA that they have been talking about proposing over a 
year and a half ago that has not even been close to seeing the 
light of day. They have got to get away from that paper and put 
it back into a scan system. Before I retired, I worked for the 
controller of the city of New York and I worked in contracts 
administration. I was able to read 1,500-page contracts in 
about 2 minutes using a scan system, a computer system, and a 
data base that I could pull up, and I can't see why the VA 
can't do the same. I understand it is a capital expense to try 
to get that system up and running, but the cost savings over 
time and, more importantly, the savings to the veteran of 
anguish of waiting for the return on their claim is worth 
whatever money it takes up front.
    Chairman Craig. As all of you currently know, a veteran is 
not permitted to hire an attorney to assist in filing claims 
for VA benefits. A recent editorial in the Washington Post 
posed this question: If American soldiers are mature and 
responsible enough to choose to risk their lives for their 
country, shouldn't they be considered competent to hire an 
attorney where necessary? How would you answer that question? 
Would any of you like to respond to that?
    John.
    Mr. Rowan. I will leap into the breach. Quite frankly, Mr. 
Chairman, lawyers are nice, but unless the lawyer is trained in 
the veterans' benefits field, frankly all of the people that 
work for all of the people sitting at this table and all of the 
people in the other VSOs and the county agencies and everybody 
else, they may not have gone to law school, but their knowledge 
of the system is better than any lawyer that I know of. That is 
the issue that needs to be done. Those people are really good 
at what they do.
    I think George's point is well taken.
    Chairman Craig. John, I was just going to say I am sure 
your comments were not taken as anti-lawyer, not that I am one, 
because I am not, but please comment about what George has 
talked about, because that is a level of expertise that if it 
is being relatively ignored at this moment doesn't seem to make 
a lot of sense.
    Mr. Rowan. I don't think it is so much ignored. I mean, 
George has a better viewpoint of that than I do, but the 
problem is, again, the structural system that the VA works in, 
and I guess it is a legal mandate that they have to verify 
everything that is handed to them, and I understand that, but I 
think if we had a better way of flowing the information in, if 
the Veterans Service Officers were able to utilize computers 
today to be able to do the work that they were doing, and I am 
sure George, I know--I happen to come from New York where 
George is, and I know his system and his people can utilize 
computers quite well. They could have all of that data and 
everything entered into a system that could be easily accessed 
by an adjudicator inside the VA if it was able to be 
electronically filed.
    We do it for taxes. We do it for everything under the sun. 
Federal procurement, I know is all done that way because, 
again, I used to be a procurement person. If we can do that 
with $10 billion worth of contracts, we can do it with the VA 
system of filing claims.
    Chairman Craig. Thank you. My time is up.
    Let me turn to Senator Akaka. We have been joined by 
Senator Obama. Danny, I have got to step out and meet with 
folks. I will be back. Why don't you finish your round and turn 
it over to the Senator, if you would.
    Thank you.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Rowan, I want you to know that I really appreciate your 
candid comments about what we need to focus on to help Vietnam 
veterans and all veterans. You raise an excellent point 
regarding staffing for VBA. I have been working to address this 
issue for several years now as a Member of the Homeland 
Security and Governmental Affairs Committee where I serve as 
Ranking Member on the Oversight of Government Management 
Subcommittee with Senator Voinovich.
    You can be assured that I will continue to address this 
matter, and I want to say that if you have further comments 
regarding this matter, I welcome them.
    Yes, George.
    Mr. Basher. Senator, with respect to the staffing levels at 
VBA, when they have retirements, it is not necessarily you are 
hiring to backfill those jobs. It is a three-tiered process, 
basically. Your senior people who leave tend to be the rating 
specialists who have the most knowledge and the most expertise 
and the most demand on them, and when they retire, those 
positions are backfilled by service reps who typically do 
development and the mid-level work, and when they get promoted, 
they are then backfilled by people who are doing triage and 
mail room work and phone unit work and essentially entry-level 
jobs.
    So when VA has to fill a gap due to retirement, they are 
actually training in three different tiers simultaneously and 
essentially taking the best people they have left in the unit 
to train at all three levels. So it really is a difficult 
process and it should be done on a continuing basis, not just 
when, oh, my god; we have got a crisis and we have got to fill 
it today. If you hired them today, it will still take 3 to 5 
years to get them up to speed.
    Senator Akaka. Well, Mr. Basher, we are talking about a 
growing problem in our Nation, and that is replacing people 
with other good personnel, and it is something that this 
Committee, that I mentioned that I am on, is really looking at 
and throughout our system, Federal system, we really have to do 
something about this, and all together, all of us, have to join 
in on trying to take care of this problem.
    Commander Kemp, while I still have some time, in your 
testimony, you address the large numbers of returning veterans 
who are suffering from readjustment issues or more debilitating 
PTSD. Unfortunately, we know that in some cases, service 
members are reticent to seek help for mental health care 
because of the stigma, the stigma attached to mental illness. 
Do you or any of you other witnesses have insight on what can 
be done to encourage service members and veterans to seek 
mental health care?
    Mr. Kemp. Yes, sir. AMVETS, we have in place right now for 
the National Garden and State personnel coming back, we have a 
pre-deployment briefing and a post-deployment, and that is to 
get them into the system so they are in the system. We also 
have outreach to the family so that they can start to recognize 
some of these issues that come up prior to it getting to be an 
emergency, and that is what AMVETS is doing for the veterans 
coming back.
    Senator Akaka. Mr. Rowan.
    Mr. Rowan. If I might add, I heard during our meetings with 
the various elected officials over the last few years that 
there was some talk about extending the 2-year free VA to 5 
years. We believe that is an important issue because we know 
from the history, unfortunately, from Vietnam Vets, the first 5 
years were very crucial when it came to PTSD to determine 
whether or not somebody committed suicide. Most of the suicides 
involved with the Vietnam Veterans, which were usually PTSD-
related, occurred within the first 5 years of their coming 
home, and we all know--everybody that has been in the service--
it takes you a couple of years to debrief, basically, and come 
back into the civilian world and just try to understand what it 
is you need to deal with in your life.
    So if they are in the system, and that gets to the Category 
8 and 7 issue to some extent, if they are in the system, they 
will get the information they need to come back into the system 
and to get the health care and help that they need when they 
need it.
    Senator Akaka. I just want to mention that I authored the 
legislation which would extend the 2-year period to 5 years, 
and I am so glad to hear what you just mentioned. We are 
finding that PTSD help really is needed within the period when 
they return and become veterans, at least the first 5 years. So 
I am glad to hear you mention it, and I will continue to work 
to enact this bill.
    My time has expired, Mr. Chairman.
    Chairman Craig. Senator, thank you very much.
    Now let me turn to Senator Obama. Welcome.

                STATEMENT OF HON. BARACK OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, and 
thanks to not just the panelists, but to all the veterans in 
the room for your outstanding service to our country. We 
greatly appreciate it.
    You know, I have been so impressed by the work that the 
VSOs have done to make sure that veterans are being properly 
served at every level of government. I particularly appreciate 
the work that you have done, helping to cut through VA red tape 
when it comes to issues like the claims processing. Some of you 
are aware that in Illinois, we have had some problems with 
respect to disability payments, speed of claims being turned 
around. There has been a sense that many have been 
shortchanged, and so I just am grateful to all of you for the 
outstanding work that you have done.
    I just have a couple of questions because several of my 
questions have already been answered. The first one--and 
anybody can take a stab at it--Mr. Rowan, if you want to start 
off, the VBA has been very active in assistance to homeless 
vets, many of whom served in Vietnam. We know that a lot of the 
problems that homeless vets face have a mental health component 
as well as a lack of job training and access to jobs. I 
understand that some community-based organizations serving 
homeless veterans are doing excellent work in integrated 
housing assistance with job training and mental health 
assistance and treatment. I am wondering if you could just talk 
a little bit about some of the programs that you have seen that 
have been most successful and how we can expand on those 
programs and scale up to meet the enormous need.
    Mr. Rowan. Yes, Senator. It is good to see you.
    When we first got involved with homeless veterans, and I 
was involved in this very early on in 1983 when, frankly, the 
controller of the city of New York did a study of homelessness 
and found all these veterans in the system and couldn't believe 
it. We kind of differed from some of the homeless advocates. It 
wasn't just about housing. We, frankly, believed that it was 
about getting services, and you are correct. Many of them were 
PTSD people, people with problems, addiction issues which are 
often, again, related to PTSD amongst the Vietnam Veterans, and 
we have seen that, unfortunately, in the more recent veterans 
as well.
    So it wasn't just housing them. You had to treat them with 
social services, rehabilitation programs, detox programs if 
necessary. One of the problems we have seen in the VA is the 
alcohol and substance abuse programs that disappeared when the 
budget got cut. The first thing the VISN directors cut was all 
the alcohol and substance abuse services. Bad move. It is what 
created the homeless group in the first place.
    We see that today still and we see the high unemployment 
amongst the new veterans, which is very disturbing to us. It, 
again, reminds me of a flashback to the seventies when we had 
trouble with the Vietnam Veterans' high unemployment rate.
    The key is services associated with housing, and we know 
that there are many transitional services programs that are run 
across the countries. Many of my chapters are involved with 
that. We have a Vietnam Veterans Assistance Fund that is our 
foundation. We have houses in Connecticut that we have been 
operating in association with the VA up there and the State of 
Connecticut Veterans Agency, again a transitional housing 
program. The idea is bring them in, bring them off the streets, 
because that is the first step.
    We actually give them a lot of tough love though. One of 
the nice things about having veterans help veterans is we have 
the ability to say to somebody sitting across the table, 
``Yeah, you are a veteran, you deserve help, but that is not 
enough of a reason, you have got to get your own help, you have 
got to be willing to help yourself,'' and we were able to work 
with many of them and get them off the streets, and we believe 
over the years we have been very successful, but who is going 
to provide the programs.
    We believe, first of all, that HUD needs to provide a lot 
more Section 8 housing programs. We need to provide a lot more 
per diem payment programs for the housing programs that are out 
there, and for all of those programs, again not just the 
housing, but to provide them with the services they need. Hook 
them up with the VA rehab centers. Get the VA to start to re-
establish the inpatient PTSD programs that they wiped out years 
ago. There are only a few of them left scattered around the 
country now with only 30-day inpatient programs. Ten-day detox 
programs are almost all gone. Everything is outpatient. Well, 
it doesn't always work that way, especially when you have 
homeless veterans. The transitional housing facilities that the 
VA does operate are very successful, and I have seen several of 
them up close and personal because I work with a lot of the 
veterans that have gone through them.
    It can be done, but it is going to take some direction of 
resources, and if we do this short term, and this is one of the 
things with the PTSD issue--if I could take just a second, the 
reason why we have 100 percent PTSD Vietnam veterans today is 
because we didn't treat them 35 years ago, and we are going to 
have 100 percent Iraq PTSD cases 20 years from now if we don't 
treat them today, and it is very simple. Take care of them now. 
The vet center program needs to be expanded into rural areas 
where all of these guards and reservists are coming from. We 
need to bring the Iraq and Afghanistan Veterans into that 
system as peer counselors like they did with the Vietnam 
Veterans program. We remember when the VA hated that program 
and wanted to bring it inside, and we said, ``no, keep it on 
the streets where it belongs.'' It was very successful, still 
is to this day, and we think it is the only way we are going to 
succeed with the newer veterans.
    The one thing about them I would say, at least they know 
what PTSD is. We didn't. They are still not quite sure what to 
do about it, and I do agree with your earlier statements that 
there is still a stigma attached with mental health issues and 
PTSD that, unfortunately, keeps them from getting the care that 
they need.
    Senator Obama. Mr. Chairman, I know that a couple of the 
panelists just wanted to respond. Would that be okay?
    Chairman Craig. Sure.
    Senator Obama. Mr. Basher and Mr. Kemp, please feel free to 
chime in.
    Mr. Basher. As a member of the Secretary's Advisory 
Committee on Homeless Veterans, and we are actually meeting up 
in Baltimore today and tomorrow, one of the issues that 
revolves around homelessness is the fact that a lot of the 
services are provided by community-based organizations and a 
lot of the support they get is a very fragmented package. You 
have got the Department of Labor providing homeless veteran re-
integration program money. You have got the Department of 
Veterans' Affairs providing grant per diem money. Both programs 
operate under very different premises and very different sets 
of rules, but those CBOs are required to learn both sets and 
become facile with that, and none of this actually provides 
what the Committee is now concluding is an important element of 
this, and that is permanent support of housing for veterans.
    VA specifically doesn't provide any of it. HVAP is going 
away from that, and HUD is now looking at providing only 
housing, but they don't want to talk about any veteran-specific 
programs.
    Senator Obama. Mr. Kemp.
    Mr. Kemp. Senator, as you know, we are having a symposium 
for the young veterans' needs in Chicago this October. So far, 
we have identified we have 60 work groups to look at different 
issues that are facing the veterans, and I would invite each 
and every one of you to participate so that we can come down 
and have a true veterans' issues forum. The veterans will be 
giving us the issues and trying to find the answers so that we 
can best serve them.
    It is not funding. It is being more effective and 
efficient.
    Senator Obama. Thank you, Mr. Chairman.
    Chairman Craig. Thank you.
    I have got a couple more questions, and then if any others 
do, we will certainly continue. We thank you again for your 
patience and your responses.
    John, the next question I am going to ask is not intended 
to put you on the spot. You are a very nimble fellow. So I 
doubt that I could do that. But I think it is important that 
the record show a little bit of time and place and history in 
relation to where we were and where we are. At a hearing on 
eligibility reform before the Senate Veterans Committee 10 
years ago, in unified testimony, VSOs testified regarding how 
eligibility reform could be accomplished so that it would be 
cost neutral. That was the argument of that time. Your 
organization suggested some veterans could contribute insurance 
and copay dollars to VA and that high-income non-service-
connected Vietnam Veterans could bring substantial new funding 
streams to VA in order to sustain care for service-
connected and indigent veterans, expand access to cost 
effective primary and preventive care, and reduce VA reliance 
on federally-appropriate rated dollars.
    Doesn't the President's budget at a 9.6 increase in direct 
appropriations and additional revenue generated through fees 
proposals on lower priority veterans strike the kind of balance 
that your organization espoused 10 years ago?
    Mr. Rowan. Not exactly.
    Chairman Craig. Okay. Please explain.
    Mr. Rowan. I am not as much of a budget expert as I would 
like to be and, frankly, we are working on another revised 
white paper that we will present to the Congress reviewing all 
the budgetary aspects. One of the problems with the whole 
Category 8 thing is this whole idea of those bringing health 
care into the system, their own insurance and the problem the 
VA seems to have with dealing with that and making that work. I 
guess the issue would become those wealthier veterans who don't 
have insurance and would have to somehow pay some copayments, 
and I think we could talk about that as well.
    Again, I am not against sitting down and talking about 
working on a whole development of how we fund the VA and 
especially about the needs of the VA, and we call on Congress 
to set up a bipartisan, bi-house committee to exactly do that. 
We have done that for welfare reform. We have done it for 
Medicare reform. We have done it for all kinds of things. 
Perhaps it is time for you and your colleagues across the 
street to sit down and both parties hammer out a bipartisan 
proposal with the input of the Veterans Service Organization to 
exactly how we can look at reasonably funding the VA.
    One of the disturbing things to me, however, is this idea 
of going after the sevens. The sevens are the zeros, the zero-
service connected. The example of those people is one I had not 
too long ago as a client of mine. He came in with lung cancer. 
As a service-
connected Vietnam Veteran, he got 100 disability immediately 
for his lung cancer. He went into chemotherapy. He went into 
all kinds of extensive treatment programs. Thank God, they 
cured him or put him in remission. I hate to even use the word 
``cured'', but they put him into remission.
    Immediately, he drops to zero, rightfully so, no cancer, no 
compensation, no problem; however his private health insurance, 
which he had, would not cover the super-MRI that he needed on 
an annual basis to make sure that his cancer wasn't coming 
back. The VA did, and thankfully he is in the system, but if he 
had been kicked out as a seven, he would not be in the system 
and would be in serious, serious harm.
    We need to re-evaluate all of those nuances that go on with 
those sevens and, again, as I pointed out, with even the 
eights. Frankly, 4 years ago, I wasn't in the system until they 
came up with the presumption on diabetes. I had been a diabetic 
from 1994, but they wouldn't give it to me in my claim until 
2003, I think it was. I am a 90-percent rated disabled veteran 
today because, unfortunately, I have got neuropathy and a few 
other things, as has many Vietnam Veterans. I am in the system. 
I am a category one. You can't touch me, but unfortunately 
there are many people----
    Chairman Craig. I am not hunting for you.
    Mr. Rowan. But unfortunately there are many who if they 
were eights, unfortunately if they got information, might in 
fact turn into ones, twos, threes, and fours, and that is what 
we are concerned about, again, as we point out with this 
outreach effort.
    So, Senator, I think everybody in this room would be more 
than happy to sit down with you and your colleagues to hammer 
out a way to make sure that the veterans' health care got 
funded as long as it is understood exactly what that means when 
we talk about our health care needs, not our desires, our 
needs, and that is all we are looking for. I actually had 
somebody tell me all you are looking for is new members and 
more money, and it really got me annoyed. We are not.
    Chairman Craig. That is a responsible and a legitimate 
request. Thank you.
    Does anyone else wish to comment?
    George?
    Mr. Basher. Sir, one of the problems I think we have with 
this whole issue is we tend to look at it as a VA issue, and if 
you look at it as a national health care issue, you have to 
design a VA system that is big enough to handle the 25 million 
veterans we have got in this country and you have to design a 
Medicare system that is a certain size, and you have to design 
a Medicaid system that is a certain size, and you have a 
private insurance program that covers a certain number of 
people. A lot of the people we are talking about are dual and 
triple eligibles. So in my mind, one or more of those systems 
is too big if we are truly trying to design the most efficient 
and effective way to do this.
    I think maybe what is also needed here is to have a 
responsible conversation about the global issues of health care 
and where VA fits into that. As you are well aware, medicare is 
the one place--you can't spend your medicare dollars with a VA 
hospital, and to me, that makes no sense. Congress took a whack 
at solving that a number of years ago with VA Advantage, and 
the thing just disappeared in a morass of conflicting 
regulations, and people gave up. I think we should take another 
stab at that.
    Chairman Craig. Good suggestion.
    Gerald, you had a comment? Please.
    Mr. Harvey. One of the things that we need to remember is 
that anybody who has been to war, no matter when or whose side 
he is on, suffers from post-traumatic stress, no matter what 
you call it. It is built in. So when we first come back, we are 
young. We say don't talk to us about it. We want to forget all 
of that, and of course that is the biggest mistake we did, not 
talk about it, not work through it, not come out of it.
    So some way or other, we need to think through a system so 
when these men come back to get out of the service, they get 
into the system right then so that you can say, ``When you 
start seeing these signals, come back; you are already in the 
system, and it is going to happen to you; you don't think so, 
but it is.''
    Chairman Craig. Well, those are very valuable suggestions, 
yes.
    Well, I appreciate this dialogue beyond the questions 
because it is a very important dialogue to have, and one of my 
frustrations, and it is a frustration that is spread nationwide 
at this moment, when we look at Federal spending as a whole, 
whether it be entitled or discretionary, and of course some are 
advocates that all VA spending become entitled, and of course 
there is a reality out there that I and Danny have to deal 
with, and that is that Social Security, Medicare, and Medicaid, 
entitled definitions, without substantial adjustments over the 
next decade and a half will consume the entire Federal budget 
based on demographics and current movement in the system of 
aging Americans by the year 2028 or 2030, depending on the 
robustness of our economy, literally consume all of the budget, 
and that includes your budget, defense budget, all budgets. 
Those are very important issues that Congress has not just yet 
decided to deal with, although liberal and conservative 
economists and demographics and all of that argue the same 
argument. So it is all there and we understand it. So there is 
a reality check we have to deal with.
    Today, those who have made a career of the military who 
have been in multiple theaters of war, the professional 
soldier, if you will, who retired out who has TRICARE are being 
asked to pay substantially more in their premiums. Obviously, 
they are concerned. They will pay some more. The question is 
how much more, and yet in sevens and eights, in all fairness, 
who may have spent 4 years in the service alone might never 
have seen a theater of war and may well have seen a theater of 
war, we are asking a little bit.
    It is very important we get to a dialogue of balance and of 
fairness, because I want veterans to have access to the health 
care system. There is no question about that. That is not a 
question in my mind. The question is eligibility, 
affordability, and a concern about, as Danny has expressed, 
making sure that we extend out time and look for and try to 
deal with those coming out of our current theaters, because I 
agree with you, Gerald. I think anyone who has been there who 
spends time there and leaves the streets of America for the 
streets of Baghdad or Kabul is going to experience some form of 
adjustment to some degree, depending on his or her experience 
or association with that particular environment. I don't think 
there is any doubt about that, and how we deal with that or how 
we cause them or help them to deal with it in the long term is 
going to be tremendously more beneficial to them, their 
families, and to society as a whole.
    So, gentlemen, thank you all very, very much.
    Danny, do you have any additional questions?
    Senator Akaka. I do, Senator.
    Chairman Craig. Please proceed.
    Senator Akaka. Thank you, Mr. Chairman. You certainly made 
an eloquent statement there.
    I just want to add this, George, that what you mentioned is 
so important. We have talked about what we call seamless 
movements from active duty to the veteran status. We need to 
work on this. I feel sometimes that VA or the VSOs need to deal 
with this by taking all those recently separated 
servicemembers. We need to reach out to those people that are 
afraid to come forward for help.
    Director Basher, as you well know, each State has its own 
unique populations and culture, and when I say culture, I feel 
each war has had its culture. The rural area is its culture. 
The urban area is its culture. So the culture makes a huge 
difference in how we deal with those problems.
    My question to you is what are the State directors doing to 
cater their outreach efforts to reach certain cultures where 
coming forward to seek treatment is frowned upon and what role 
do you play in crafting VA's outreach efforts in particular 
States?
    Mr. Basher. Thank you for the question, Senator. One of the 
things that everybody I think is aware of is that when people 
are returning from the theater now and being demobilized or 
separating from service, they are getting transition assistance 
programs and they are getting--everybody is meeting the planes 
at the tarmac and everybody is having the welcome home 
celebration, and what we found is that most veterans--and my 
fellow Vietnam Vet John and I remember what it was like when we 
came home--paying attention to all that benefit stuff was 
something that we didn't even hear when you were telling us, 
and it takes more than one time to deliver the message.
    So what we are trying to do is push awareness of veterans 
and veteran issues and returning veteran issues down to State 
and local level, because these are going to occur over time. 
One letter from me or from my Governor or from the Secretary of 
the VA is another piece of junk mail in that veteran's mailbox, 
but a continued presence--veterans are real messy. They are not 
going to show up in the community-based clinic or in the VA 
hospital when they finally have an issue. They are going to 
come in to the community mental health clinic, the local 
hospital, the police station with whatever that issue is, and 
what State directors are doing is trying to engage State and 
county governments to when they get clients at intake, whether 
that is a prisoner, a client, a patient, or whatever you want 
to call it, the first question you ask them is: Were you ever 
in the military?, and make those local and State institutions 
aware of what the issues are surrounding military people.
    If the answer is yes, we refer them back to some of our 
counselors, to the local county veteran service agency, or to 
the VA, and let us screen them at that point for the 
appropriate level of treatment and get them referred to the 
appropriate system, and whether that is done at the local level 
in Manhattan or Harlem or the Oneida Reservation up in northern 
New York, it is being delivered by local folks who understand 
the local culture and in most cases probably know the people 
who are affected.
    So that is something that we are working very, very hard 
at, is to make that connection push out all the way across the 
State and local level of government.
    Senator Akaka. John.
    Mr. Rowan. If I might add real quick, one of the problems 
we have had is the VA has built a wall around itself and said 
we don't want anybody coming in anymore, stay away. They don't 
do any outreach whatsoever, none, and it is left, 
unfortunately, to the States and the VSOs and everybody else to 
try to do that, and they are doing their best efforts, but the 
VA needs to take some more generic national kind of outreach, 
an E.R. program, if you will, to try to explain some of these 
situations.
    One of the things my organization is working on, we are 
trying to develop a proposal to go out to the private sector, 
to the medical community, to tell the doctors and nurses and 
health care people out there, Ask that person across the table, 
man or woman, because there are a lot of women today, are you a 
veteran, did you serve somewhere, and if they answer the first 
question yes, then you have got to go up to the next laundry 
list, Were you in a combat theater, etc., etc., to elicit those 
responses to enable them to do better health care. In 30 years 
in a private HMO, nobody ever asked me the question are you a 
veteran, ever, despite the fact of what I ended up with all my 
disabilities.
    So it is a real problem, and actually I was meeting with 
Congressman Buyer yesterday, and he came up with a really good 
issue, and I am going to run with it. That is to go to the 
medical schools who teach all these doctors who often also 
associated with VA hospitals, to teach them about veterans' 
medical care, what it means when you are a veteran as compared 
to a private citizen, and I think we can work wonders over the 
long term of dealing with that kind of program.
    Senator Akaka. Thank you. Thank you very much. This has 
been valuable for me and for the Committee, and I really thank 
you for your testimony, and my time has expired.
    Thank you very much, Mr. Chairman.
    Chairman Craig. Danny, thank you.
    I have offered up to the challenge and, John, you have 
responded appropriately, and other VSOs are doing the same. I 
have not yet, nor have we collectively, decided how to shape an 
evaluation of and a method by which we bring forth proposals as 
it relates to the reality of VA funding and its 
appropriateness.
    I look at the current trend lines, and it is obvious that 
probably during my tenure of this Committee, I will preside 
over the first $100 billion budget for the VA, a phenomenal 
amount of money. I am not disputing its need, not in any sense 
of the word. What I am doing is placing it up against other 
realities as it relates to overall funding of government and 
our needs, and some of the questions, some of the proposals 
that you just mentioned, George, are perfect examples of an 
effort to look at this again to see if medicare subvention and 
all those kinds of things fit, because back then, the reason it 
didn't work was because there were too many people who didn't 
want it to work, because the Medicare folks versus the VA and 
versus veterans didn't really see that as appropriate because 
it might be an offset and therefore it would discontinue 
certain funding lines, and all of that game gets played when we 
start breaking across these budgetary walls and lines that we 
may necessarily have to do if we are interested in delivering 
the kind of health care that is necessary and funding it 
appropriately.
    We have a good thing going. We have a quality health care 
system, and we have invested heavily in it, and that is 
appropriate and the question is how does it serve now and how 
does it serve in the future in a way that I think encompasses 
all of the needs that Danny and I are concerned about and that 
you have expressed. So I would suggest, but I don't have to 
worry about you doing it, that you stay tuned because we are 
going to look at this. I think we have to as a Congress and as 
a country to be responsible to America's veteran in a way that 
is appropriate and acceptable.
    Gentlemen, thank you all for your testimony today. The 
record will remain open for any additional comment for a period 
of up to 5 days, and we thank you all very much for being here.
    The Committee will stand adjourned.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

      
    [GRAPHIC] [TIFF OMITTED] T8177.001
    
    [GRAPHIC] [TIFF OMITTED] T8177.002
    
    [GRAPHIC] [TIFF OMITTED] T8177.003
    
    [GRAPHIC] [TIFF OMITTED] T8177.004
    
    [GRAPHIC] [TIFF OMITTED] T8177.005
    
    [GRAPHIC] [TIFF OMITTED] T8177.006
    
    [GRAPHIC] [TIFF OMITTED] T8177.007
    
    [GRAPHIC] [TIFF OMITTED] T8177.008
    
    [GRAPHIC] [TIFF OMITTED] T8177.009
    
    [GRAPHIC] [TIFF OMITTED] T8177.010
    
    [GRAPHIC] [TIFF OMITTED] T8177.011
    
    [GRAPHIC] [TIFF OMITTED] T8177.012
    
    [GRAPHIC] [TIFF OMITTED] T8177.013
    
    [GRAPHIC] [TIFF OMITTED] T8177.014
    
    [GRAPHIC] [TIFF OMITTED] T8177.015
    
    [GRAPHIC] [TIFF OMITTED] T8177.016
    
  

                                  <all>

</pre></body></html>
